<html>
<title> - EXAMINING STATE EFFORTS TO UNDERMINE ACCESS TO REPRODUCTIVE HEALTHCARE</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]








                        EXAMINING STATE EFFORTS
                          TO UNDERMINE ACCESS
                      TO REPRODUCTIVE HEALTH CARE

=======================================================================


                                HEARING

                               BEFORE THE

                              COMMITTEE ON
                          OVERSIGHT AND REFORM
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                           NOVEMBER 14, 2019

                               __________

                           Serial No. 116-71

                               __________

      Printed for the use of the Committee on Oversight and Reform


              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                  Available on: http://www.govinfo.gov
                     http://www.oversight.house.gov
                        http://www.docs.house.gov 
                        
                        
                               __________

                      U.S. GOVERNMENT PUBLISHING OFFICE
                      
38-554 PDF                 WASHINGTON : 2020 
                        
                        
                        
 			                     
                               __________
                      
                        
                        
                        
                        
                        
                   COMMITTEE ON OVERSIGHT AND REFORM

            CAROLYN B. MALONEY, New York, Acting Chairwoman

Eleanor Holmes Norton, District of   Jim Jordan, Ohio, Ranking Minority 
    Columbia                             Member
Wm. Lacy Clay, Missouri              Paul A. Gosar, Arizona
Stephen F. Lynch, Massachusetts      Virginia Foxx, North Carolina
Jim Cooper, Tennessee                Thomas Massie, Kentucky
Gerald E. Connolly, Virginia         Mark Meadows, North Carolina
Raja Krishnamoorthi, Illinois        Jody B. Hice, Georgia
Jamie Raskin, Maryland               Glenn Grothman, Wisconsin
Harley Rouda, California             James Comer, Kentucky
Katie Hill, California               Michael Cloud, Texas
Debbie Wasserman Schultz, Florida    Bob Gibbs, Ohio
John P. Sarbanes, Maryland           Ralph Norman, South Carolina
Peter Welch, Vermont                 Clay Higgins, Louisiana
Jackie Speier, California            Chip Roy, Texas
Robin L. Kelly, Illinois             Carol D. Miller, West Virginia
Mark DeSaulnier, California          Mark E. Green, Tennessee
Brenda L. Lawrence, Michigan         Kelly Armstrong, North Dakota
Stacey E. Plaskett, Virgin Islands   W. Gregory Steube, Florida
Ro Khanna, California                Frank Keller, Pennsylvania
Jimmy Gomez, California
Alexandria Ocasio-Cortez, New York
Ayanna Pressley, Massachusetts
Rashida Tlaib, Michigan

                     David Rapallo, Staff Director
               Miles Lichtman, Professional Staff Member
                        Jennifer Gasper, Counsel
                          Joshua Zucker, Clerk

               Christopher Hixon, Minority Staff Director
               
                      Contact Number: 202-225-5051
                      
                      
                      
                      
                      
                      
                      
                      
                      
                      
                      
                      
                      
                      
                      
                      
                      
                         C  O  N  T  E  N  T  S

                              ----------                              
                                                                   Page
Hearing held on November 14, 2019................................     1

                               Witnesses

Jennifer Box, St. Louis, Missouri
    Oral Statement...............................................     6
Dr. Colleen McNicholas, OB/GYN, Chief Medical Officer, Planned 
  Parenthood of the St. Louis Region and Southwest Missouri
    Oral Statement...............................................     7
Fatima Goss Graves, President and Chief Executive Officer, 
  National Women's Law Center
    Oral Statement...............................................     9
Allie Stuckey (minority witness), Carrollton, Texas
    Oral Statement...............................................    10
Marcela Howell, Founder and President/Chief Executive Officer, In 
  Our Own Voice: National Black Women's Reproductive Justice 
  Agenda
    Oral Statement...............................................    12

Written opening statements and witness' written statements are 
  available at the U.S. House of Representatives Repository: 
  https://docs.house.gov.

                              ----------                              

The documents listed below are available at: https://
  docs.house.gov.

  * Letter from Ms. M'Evie Mead, Director of Policy and 
  Organization, Planned Parenthood Advocates in Missouri; 
  submitted by Rep. Clay.

  * ``A Mother's Love and the March that Matters,'' article; 
  submitted by Rep. Foxx.

  * ``No, Georgia's Heartbeat Bill Won't Imprison Women Who Have 
  Abortions,'' article; submitted by Rep. Hice.

  * Violations at Abortion Clinics in Several States; submitted 
  by Rep. Cloud.

  * Letter from the American College of Obstetricians and 
  Gynocologists; submitted by Acting Chairwoman Maloney.

  * Letter from Reproaction; submitted by Acting Chairwoman 
  Maloney.

  * Letter from the Guttmacher Institute; submitted by Acting 
  Chairwoman Maloney.

  * Letter from the American Civil Liberties Union; submitted by 
  Acting Chairwoman Maloney.


 
                        EXAMINING STATE EFFORTS
                          TO UNDERMINE ACCESS
                       TO REPRODUCTIVE HEALTHCARE

                      Thursday, November 14, 2019

                   House of Representatives
                  Committee on Oversight and Reform
                                           Washington, D.C.

    The committee met, pursuant to notice, at 2:19 p.m., in 
room 2154, Rayburn Office Building, Hon. Carolyn Maloney, 
presiding.
    Present: Representatives Maloney, Norton, Clay, Lynch, 
Connolly, Krishnamoorthi, Raskin, Rouda, Wasserman Schultz, 
Sarbanes, Speier, Kelly, DeSaulnier, Lawrence, Khanna, Gomez, 
Pressley, Tlaib, Jordan, Foxx, Massie, Hice, Grothman, Cloud, 
Roy, Miller, Green, Armstrong, Steube, Keller, and Norman.
    Also present: Representatives Chu, Schakowsky, Schrier, and 
Lee.
    Chairwoman Maloney. The committee will now come to order.
    Good morning to everyone. The purpose of this hearing is to 
examine how state policies, like those in Missouri, are 
impacting residents' access to comprehensive reproductive 
healthcare services, including abortion.
    Without objection, the chair is authorized to declare a 
recess of the committee at any time.
    For audience purposes, we welcome you and respect your 
interest in being here. In turn, we request and we ask you to 
respect the proceedings as we go forward in today's hearings. 
With that, I will now recognize myself to give an opening 
statement.
    I would like to begin by acknowledging that this is the 
first full committee hearing we have held since our friend, our 
colleague, and our beloved chairman, Elijah Cummings, passed 
away. Chairman Cummings spent his entire life fighting for 
justice and equality for everyone, and he was a fierce champion 
for women's access to healthcare.
    Across the country extreme forces in some state governments 
are taking draconian steps to violate women's rights by 
restricting access to reproductive health services, including 
abortion. These state actions include prerequisite undue 
burdens, restrictions, and outrageously invasive procedures for 
patients seeking abortions. Let me be clear about what these 
restrictions are. They are a denial of basic healthcare 
services that women have a right to receive no matter where 
they live.
    I want to thank my very good friend, Congressman Clay, for 
his leadership in requesting today's hearing. Missouri has 
taken some of the most extreme actions to limit access to 
reproductive healthcare. Missouri is one of six states with 
only one remaining abortion provider, and as we will hear 
today, it is at risk of having no providers at all. Missouri's 
one remaining clinic is Planned Parenthood, and we thank that 
clinic's director, Dr. McNicholas, for testifying here today 
and for her brave service to the women in her community every 
single day.
    Earlier this year, Dr. Randall Williams, the director of 
the Missouri State Health Department, ordered Planned 
Parenthood to perform medically unnecessary pelvic examinations 
on every single woman seeking an abortion. This was an invasive 
state-sponsored abuse of women seeking care. After significant 
public backlash, the State suspended this cruel practice. But 
Dr. Williams also recently was forced to admit that he directed 
state employees to collect information about patients' 
menstrual cycles to advance his ideological crusade. That is 
what they were spending taxpayers' dollars on.
    I cannot begin to describe my disgust at these violations 
of privacy and breaches of trust by government officials. Sadly 
Missouri's actions are not taking place in isolation. Other 
states have pushed for similar restrictions. I believe these 
states have been emboldened by the Trump Administration's 
systemic attacks on reproductive healthcare and general 
disrespect for women.
    In 2012, our former chairman, Darrell Issa, held a hearing 
in this room in this committee with an all-male panel of 
religious leaders who were trying to take away contraceptive 
coverage for women. They did not invite one single woman to 
testify on that panel. Then they refused our request to have 
Sandra Fluke, who was a Georgetown law school student at the 
time, testify about the importance of health insurance coverage 
of contraceptives. They said she was, and I quote, ``not 
qualified.'' It was at that hearing that I asked in protest, 
where are the women. It is time to let women speak, and it is 
time for everyone to listen. It is time for elected 
representatives here in Congress and in state houses across the 
country to protect the right to privacy and a woman's right to 
abortion services rather than attack it, undermine it, and try 
to eliminate it.
    I want to thank Jennifer Box for sharing her family's story 
with us. No one should ever have to make the heartbreaking 
decision that you and your husband had to make, but it is your 
decision and it does not belong to anyone else. I also want to 
thank Marcela Howell from In Our Own Voice, which is part of 
the National Black Women's Reproductive Justice Agenda, and 
Fatima Goss Graves from the Women's National Law Center, for 
all their work and for being here today, and for helping the 
committee and me on this subject.
    I now recognize the Ranking Member Jordan for his opening 
statement, and I yield back.
    Mr. Jordan. Thank you, Mr. Chair. I want to thank our 
witnesses for being here today. In the Declaration of 
Independence, signed 243 years ago, our Founding Fathers 
enshrined the principle that life, liberty, and the pursuit of 
happiness are unalienable for everyone. I think it is always 
interesting to note the order the founders placed the rights 
they chose to mention. Can you really pursue happiness, can you 
chase down your goals and dreams if you first don't have 
freedom, if you first don't have liberty? Do you ever enjoy 
true liberty, true freedom if government won't protect your 
most fundamental right, your right to live, your right to life? 
Life is precious. It is a sacred gift from God.
    During an earlier time here in Congress, whatever 
disagreements that we had, colleagues who didn't share those 
beliefs, there was a common understanding about this 
fundamental principle, that life, in fact, is precious. Over 
the past few years, it seems our two sides have moved away from 
this basic understanding. Today my colleagues on the other side 
of the aisle will charge me and Republicans as being against 
women. Democrats will say if you are not for them and this 
position and their position on this issue, then you are against 
all women. We want all people, including women and babies, to 
have access to world-class healthcare. Statements to the 
contrary are simply false and are meant to divide our country.
    Today, this Congress is in the midst of an unprecedented 
impeachment inquiry against President Trump. I am proud that 
President Trump is one of the most pro-life presidents to ever 
lead our Nation. President Trump has taken bold steps to stop 
Federal funding of abortions and enable better legal 
protections for healthcare workers who are opposed to 
providing, assisting, or participating in these procedures. The 
hearing today is an attack on that pro-life record.
    Today's culture, standing for life, is not easy. I am 
always guided by one of my favorite Scripture verses, II 
Timothy 4:7, ``Fight the good fight, finish the course, keep 
the faith,'' and that is what we have to do, keep the faith in 
those basic principles outlined in that document that started 
our Nation over 200 years ago. We came to this Congress to 
fight for the right of all Americans to have life, liberty, and 
pursue happiness. I yield back.
    Chairwoman Maloney. I will now yield one minute to the 
member from the great state of Missouri, Lacy Clay, who 
requested this hearing.
    Mr. Clay. Thank you, Madam Chairwoman. I along with my 
constituents appreciate your calling this hearing today on an 
urgent issue that threatens the health and personal freedom of 
millions of American women. The assault against a woman's right 
to make their own healthcare decisions is an insult to the 
basic values of individual freedom and limited government. 
Nowhere in the Nation is that assault more urgent than in my 
home state of Missouri, specifically in the city of St. Louis, 
which I am so proud to represent.
    Planned Parenthood of St. Louis is the last remaining 
women's healthcare clinic in the entire state of Missouri that 
also provides abortion services. I visited the clinic staff and 
physicians this past June as the battle was elevating, and I 
wanted to lend my support and voice to their efforts. As a 
husband, father, and brother, I support and trust the private 
personal health choices of women. I am truly amazed at the 
Missouri Department of Health would, along with efforts to shut 
down the clinic, intimidate patients and threaten providers, 
and would allegedly and bizarrely track women's menstrual 
periods on spreadsheets to determine if they had had an 
abortion. No woman should be subjected to this violation of 
their personhood. This is America, it is her body, it is her 
healthcare, and it is her decision.
    I stand with Planned Parenthood because they are truly on 
the front lines of defending women's healthcare across America. 
Madam Chairwoman, I would also like to introduce into the 
record a personal statement by Ms. M'Evie Mead, the director of 
policy and organizing of Planned Parent Parenthood advocates in 
Missouri.
    Chairwoman Maloney. Without objection, so ordered.
    Mr. Clay. Thank you. I yield back.
    Chairwoman Maloney. I will now yield time to the member 
from the great state of North Carolina, Dr. Foxx.
    Ms. Foxx. Thank you, Chairwoman Maloney. I welcome you to 
your first hearing as acting chairwoman and look forward to 
continuing working together in your new role. We have had a 
productive working relationship over the years, and I commit to 
continuing in that spirit.
    I want to say that my sympathy goes out to any woman who 
feels she must seek an abortion. It must be a horrible 
situation to be in, but I will admit that I am perplexed by the 
scope of the hearing. After all, my colleagues on the other 
side are quick to assert that Roe v. Wade is ``the law of the 
land. However, Planned Parenthood V Casey clearly allows states 
to implement abortion restrictions, even ones that apply during 
the first trimester of pregnancy. States are grappling with 
issues of how to defend and preserve life and support high 
standards for women's healthcare. As states continue to explore 
ways to do so in recent years, we are now at a reflection 
point.
    After the Governor of Virginia's horrific comments earlier 
this year, there has been a national outcry over the apathy 
shown by the pro-abortion movement toward babies that have been 
born after an abortion. This is an issue that is very close to 
my heart and the hearts of millions of Americans. I am going to 
quote the Governor: ``If a mother is in labor, I can tell you 
exactly what would happen. The infant would be delivered. The 
infant would be kept comfortable. The infant would be 
resuscitated if that is what the mother and the family desired, 
and a discussion would ensue between the physicians and the 
mother. Governor Northam unfortunately does not stand alone in 
this appalling stance. He echoes Planned Parenthood's 
lobbyists, who during testimony on Florida's Born Alive Bill, 
expressed support for leaving an abortion survivor on the table 
to die, if that is what the patient and abortionist decided.
    In New York, the Reproductive Health Act signed into law by 
Governor Andrew Cuomo removes protections for children born 
alive during abortion attempts, leaving them at the mercy of 
the abortionist who just minutes earlier was trying to kill 
them. Illinois has also enacted a law that repeals the Illinois 
Partial Birth Abortion ban Act, and removes licensing 
requirements for abortion facilities. Still other states, 
notably, Massachusetts and Virginia, having proposed 
legislation equally as alarming. Only two-thirds of the states 
have any laws to protect infants who survived abortion and that 
positively enshrine their right to life into law. That is 
simply unacceptable.
    Madam Chairwoman, respectfully, in light of these events, I 
hardly find that anyone is losing access to anything, anyone 
save the defenseless, the unborn, and now even the born alive. 
They are the ones having their rights deprived, and the 
American people find this intolerable. I find it to be an 
abomination. The pendulum in the states is not one that 
swinging against women, not in the slightest. Some of my 
colleagues used to espouse the idea that abortion should be 
safe, legal, and rare. They espouse it no longer. Instead, on-
demand access to abortion up to and, tragically, even after 
birth is the new mantra. And the fact that extremists are 
working to keep this ever-expanding restriction on the right to 
life buttressed against the lives of babies born outside the 
womb, this should be a wake-up call to us all.
    I call on Speaker Pelosi to end her blockade against the 
bipartisan Born Alive Survivors Protection Act. This bill would 
protect babies born alive in the remaining one-third of state 
jurisdictions that fail to do so. Life is sacred, and the 
regard with which we hold it is what defines who we are as a 
society. We live in a society that mistakes choice for liberty 
and denies the dignity of unborn life. But the beauty of living 
in a free country is that we can use our liberty for love. We 
must put love into action every day, affirming the value of 
life at all stages, no matter the difficulties it presents. 
Striving to love daily is not easy, yet it is the greatest 
exercise of our freedom, and there is no life unworthy of that 
love. I yield back, Madam Chairwoman. Thank you.
    Chairwoman Maloney. I will now briefly yield to Congressman 
Clay to introduce his constituent, Dr. McNicholas.
    Mr. Clay. Thank you, Madam Chair, and I am happy to 
introduce to the committee one of my distinguished 
constituents, a highly skilled physician, who has dedicated her 
life to providing exceptional healthcare for all women, the 
chief medical officer of Planned Parenthood of the St. Louis 
Region in Southwest Missouri, Dr. Colleen McNicholas. Dr. 
McNicholas has also served as a distinguished assistant 
professor of obstetrics and gynecology at Washington University 
of Medicine in St. Louis, and Dr. McNicholas is also a champion 
for closing healthcare disparities, like high maternal and 
infant mortality rates, that affect minority and low-income 
patients, mostly because of a lack of access to basic medical 
care.
    Dr. McNicholas performs her duties with skill and 
compassion. She is a compassionate healer who fiercely defends 
her patients' rights and their privacy as well. Dr. McNicholas 
is a warrior for access to quality healthcare for women, not 
just in St. Louis, but across Missouri and across the Nation as 
well. Welcome, Doctor, and I yield back.
    Chairwoman Maloney. Thank you, Congressman. We are also 
joined by Jennifer Box from St. Louis, Missouri, and she was 
holding that beautiful baby girl. Also we are joined with 
Fatima Goss Graves, president and chief executive officer of 
the National Women's Law Center, and Allie Stuckey, from 
Carrollton, Texas, and Marcela Howell, founder and president, 
chief executive officer, In Our Own Voice: National Black 
Women's Reproductive Justice Agenda.
    If you would all please rise and raise your right hand, I 
will begin to swear you in, and raise your right hand.
    Do you swear to affirm that the testimony you are about to 
give is the truth, the whole truth, and nothing but the truth, 
so help you God?
    [A chorus of ayes.]
    Chairwoman Maloney. Let the record show that the witnesses 
answered in the affirmative. Thank you, and please be seated.
    The microphones are sensitive, so please speak directly 
into them. Without objection, your written statement will be 
made part of the record. With that, Ms. Box, you are now 
recognized for your opening statement.

         STATEMENT OF JENNIFER BOX, ST. LOUIS, MISSOURI

    Ms. Box. Good afternoon, Acting Chairwoman Maloney, Ranking 
Member Jordan, and members of this committee. My name is 
Jennifer Box. I am a mother of three living children, and, as 
you saw, I am here today with my three-month-old, Astrid, and 
my husband, Jake. I am a small business owner, a wife, and a 
Missourian.
    I am here today to tell you the story of our daughter, 
Libby. I am also here to share with you as someone who was in 
need of an abortion, how difficult my home state of Missouri 
makes it for pregnant people to access abortion. Libby's story 
is heartbreakingly linked with the political landscape in 
Missouri, something I never imagined I would have to navigate 
when the learning the most devastating news of our lives.
    It was almost in the same breath that I learned my 
pregnancy had a fatal fetal diagnosis that I learned my home 
state of Missouri would insert itself in the middle of my 
grief. I searched for answers everywhere, and yet we found no 
solace in them. Our daughter, if not stillborn, would be born 
into a life of immediate and repeated invasive medical 
intervention. She would essentially have been born onto life 
support. With broken hearts, we knew that the greatest act of 
love that we could undertake as her parents would be to suffer 
ourselves instead, to end the pregnancy, grant Libby peace, and 
spare her tiny, broken body a short life full of pain.
    We had made our decision and were still grappling with the 
reality of it, but there was little time to spare. Missourians 
like me who seek abortion are confronted with a litany of 
onerous restrictions, including mandatory waiting periods, 
private and public insurance bans, informed consent laws, and 
more. This means that I moved at the direction of the 
government. For example, my doctor's Catholic hospital, where I 
delivered my two older children, refused me care. We had to pay 
thousands of dollars out of pocket because of the state's 
insurance bans against abortion coverage. And perhaps most 
surprising, our procedure was rushed due to the state's consent 
and mandatory delay laws.
    Despite how difficult it was to access the medical care I 
needed, my actual abortion procedure was the most compassionate 
care I have ever received from a physician. Jake and I left 
that day knowing that we had made the most loving and merciful 
choice for our daughter.
    I thought after the procedure was over my family could 
begin to heal privately. I never imagined watching the State of 
the Union and hearing the President refer to women like me, 
women who have had abortions later in pregnancy, as murderers. 
I never fathomed my Governor would weaponize the health 
department in an attempt to end safe, legal abortion in 
Missouri. I did not anticipate my state legislature enacting an 
eight-week abortion ban that would have made it impossible for 
me to make the best decision for our family.
    And let me be clear. My story does not give anyone the 
right to make judgments about good reasons and bad reasons for 
abortion. A fetal diagnosis was my reason, but nobody should 
have to explain themselves or compare their stories to justify 
a deeply personal decision. I tell my story knowing I am a 
woman of privilege with means and resources to access the care 
I needed despite a complicated landscape of laws. Every day 
women and people of color who fear racist and discriminatory 
policies carry the heaviest burdens when navigating abortion 
access.
    Politicians like Governor Parson are hellbent on finishing 
off what little remains of the reproductive healthcare in my 
State. Members of Congress, I urge you to remember who you 
represent. I am the one in four women who will have an abortion 
in her lifetime. You have the power to change a broken system 
working against us, and I ask that you work in our best 
interest. I am not asking you to condone my choice. I am simply 
begging lawmakers like you, who have the power to create 
change, to allow families to make that choice for themselves.
    I speak for Libby. It is an honor to share her name with 
this committee and the country today. Libby Rose Box. I have a 
rose tattoo above my heart so that she is with me every day. I 
am her mother, and she is my daughter and will always be my 
daughter. I made decisions from day one as her mother, and I 
made the most important decision of Libby's life, when together 
with my husband we decided to terminate the pregnancy. It was a 
sacred, painful, personal decision. That is our story unique to 
our family, and one that never should have included any 
politicians. Thank you for your time.
    Chairwoman Maloney. And thank you for sharing your story. I 
will now call upon Dr. Colleen McNicholas.

 STATEMENT OF COLLEEN MCNICHOLAS, M.D., OB/GYN, CHIEF MEDICAL 
    OFFICER, PLANNED PARENTHOOD OF THE ST. LOUIS REGION AND 
                       SOUTHWEST MISSOURI

    Dr. McNicholas. Thank you, Acting Chairwoman Maloney, 
Ranking Member Jordan, and members of the committee. Special 
thanks to Representative Clay for that very kind introduction.
    My name is Dr. Colleen McNicholas, and I am a practicing 
OB/GYN in the state of Missouri. And as you heard, I am the 
chief medical officer of Planned Parenthood of the St. Louis 
Region in Southwest Missouri. For more than a decade, I have 
been honored with the trust of patients seeking a broad 
spectrum of reproductive healthcare services, including 
abortion.
    As you may know, there is only one health center left in 
Missouri that provides abortion to meet the needs of more than 
1.1 million women of reproductive age in my state, Planned 
Parenthood's Reproductive Health Services in St. Louis. I am 
here today because if Governor Parson and Health Director 
Williams get their way, Missouri could soon become the first 
state since Roe v. Wade without a single health center that 
provides abortion care.
    I want to tell you how we got here and the dangers that we 
face when state officials abuse their power and disregard 
patients' lives to pursue a political agenda. Despite the 
reality that abortion is safe, Missouri politicians have 
layered restriction upon restriction, ranging from long waiting 
periods to insurance coverage bans, in a deliberate attempt to 
end abortion access. Over the last 30 years, Missouri has gone 
from nearly 30 clinics to just one clinic today.
    Earlier this year, Governor Parson signed one of the most 
restrictive abortion bans in the country, banning abortion as 
early as eight weeks, and all together if Roe were overruled. 
Fortunately, that ban for now is blocked in the courts. Unable 
to get the job done through legislation, though, Parson's 
administration weaponized the licensure process to deny our 
abortion facility license. Health officials admitted under oath 
that they singled out Planned Parenthood for extra inspections, 
additional scrutiny, including at the behest of anti-abortion 
protestors and legislators.
    They came to our clinic five times in the first five months 
of this year, all while they conceded that hospitals and 
surgery centers providing much riskier procedures went years 
without a single inspection. During this year's inspection 
process, the department also admitted to keeping a spreadsheet 
of my patients' menstrual cycles, a brazen abuse of power and 
misuse of data motivated by an agenda to find something, 
anything, that they could use to justify further scrutiny. As 
shocking as that sounds, more egregious was Director Williams' 
reinterpretation of a 1988 regulation which forced over 100 
patients to undergo multiple invasive pelvic exams. My 
colleagues and I could not in good conscience force patients to 
take their clothes off unnecessarily and endure and extra 
state-mandated vaginal exam. Due to public outcry, the 
department relented, but that only confirms that there was no 
real medical reason for that exam.
    Missourians want to believe that state officials charged 
with protecting public health have their best interests in 
mind. They want to trust that when they go to the doctor, their 
private medical information will not be mined by the department 
of health as part of a political fishing expedition. Governor 
Parson and Director Williams have repeatedly violated the trust 
of our community and compromised my patients' safety, all to 
push a political agenda.
    And it is not just Missouri. Anti-abortion politicians in 
other states, including Louisiana, refuse to license abortion 
facilities simply because they do not agree with the healthcare 
that is provided there. This year alone, 12 states have enacted 
25 different abortion bans, and that is on top of the nearly 
500 abortion restrictions enacted in the states since 2011. 
This obsession with abortion has not only proven detrimental to 
our patients, but it has lasting effects on the health of an 
entire community. While Missouri goes to incredible lengths to 
ban abortion, maternal mortality is rising, and black women are 
dying in pregnancy at three times the rate of white women. 
Despite this and many other serious public health crises anti-
abortion politicians continue to divert precious resources to 
the overregulation and targeting of abortion providers.
    In Missouri, I am happy to say that despite the unrelenting 
attacks on reproductive healthcare, our doors remain open for 
now. Planned Parenthood will continue the work of ensuring that 
every patient who needs and wants an abortion is able to access 
that care with dignity and respect, and consistent with their 
values in spite of this impossible landscape. In my exam room, 
abortion is not political. It is simply healthcare, and it is 
time we listened to the majority of Americans and put an end to 
this rampant abuse of power, and do what is necessary to keep 
abortion safe, legal, and accessible. Thank you.
    Chairwoman Maloney. Thank you. Thank you for your work and 
for your testimony today. I am now going to recognize Fatima 
Goss Graves.

STATEMENT OF FATIMA GOSS GRAVES, PRESIDENT AND CHIEF EXECUTIVE 
              OFFICER, NATIONAL WOMEN'S LAW CENTER

    Ms. Goss Graves. Thank you, Acting Chairwoman Maloney, and 
Ranking Member Jordan, and members of the committee. Thank you 
for the invitation to testify today, and especially on this 
first hearing following Congressman Cummings' passing. He was a 
champion for justice and on these issues.
    My name is Fatima Goss Graves. I am president and CEO at 
the National Women's Law Center. At the Law Center, we know 
that access to reproductive healthcare, including abortion, is 
vital to gender justice. Access to abortion is a key part of a 
person's liberty and equality and economic security, and 
everyone, no matter where they live, no matter their financial 
means should have access to abortion when they need it.
    As the Supreme Court said in Planned Parenthood v. Casey, 
the ability of women to participate equally in the economic and 
social life of this Nation has been facilitated by their 
ability to control their reproductive lives. We also know that 
legislators passing restrictions on abortion want to control 
the lives and futures of women. And it is not lost on me that 
we are facing the biggest threat to the right to abortion on 
the eve of the 100th anniversary of the Nineteenth Amendment 
when some women first gained the right to vote. The fight to 
secure the vote was symbolic of a broader societal change 
regarding women's ability and right to be politically equal and 
make politically independent decisions. Now, too, there is a 
broader movement in this country that will transform the 
relationship between gender and power. And it is against this 
backdrop that we must view Missouri's regulatory and 
legislative efforts to shut down the state's last abortion 
clinic.
    Missouri is not the only or even the first state to seek to 
end abortion in this country, of course, but what is unique in 
this moment are the types of abortion bills that are being 
introduced and passed, before this year, bans on abortion that 
represented direct challenge to Roe. For example, banning 
abortion two weeks after a missed period before most people 
would even know that they are pregnant, were typically seen as 
too radical, even by many anti-abortion advocates.
    What is also unique to this moment is state legislators' 
willingness to express up front why they are pushing these 
extreme measures. Their goal is to propel a case that presents 
the Supreme Court an opportunity to overturn or to grossly 
undermine Roe v. Wade. These legislators believe that between 
President Trump, Vice President Pence, and the newly 
constituted Supreme Court, that their goal will be realized. 
During his first campaign, President Trump even promised some 
form of punishment for women who have abortions, and that he 
would automatically overturn Roe v. Wade. In the three years 
that Trump has been in power, he has reshaped our Federal 
judiciary in shocking terms to fulfill that promise.
    It is disturbing then that earlier this year, the Fifth 
Circuit upheld a Louisiana law that is identical to a Texas law 
struck down by the Supreme Court in Whole Woman's Health v. 
Hellerstedt in 2016. The Supreme Court has just agreed to 
review this rogue decision this term in June Medical Services 
v. Gee. This should be an easy decision. Nothing relevant has 
changed in the last three years except for the composition of 
the Supreme Court, but the law at issue in June also does 
nothing to make abortion, an already extremely safe procedure, 
safer. Instead, such laws are intended to close clinics, and 
they have done just that.
    The resulting shortage of abortion providers has led to 
longer waiting times for appointments, increased travel to 
clinics which often result in increased costs, long distance 
travel, hotel stays in different cities, additional childcare 
expenses, more time off work when people don't have it, and 
ultimately delays in getting the care that they are seeking. 
These costs compound the other restrictions that are already in 
place, including restrictions on insurance coverage of 
abortion, all intended to make abortion unaffordable and, 
therefore, inaccessible. What these politicians are doing is 
not representative of the will of the people. The public 
doesn't want the right to abortion overturned. In fact, in the 
wake of these extreme abortion bans, the public sentiment 
showed its strength as people flooded the streets this past 
summer to protest these laws in the middle of the week.
    As president of an organization that fights for gender 
justice in our schools, in work, in healthcare, and improving 
income security for women in their families, I have a bird's 
eye view of how all of these fights are connected. The same 
misogyny that is driving these abortion bans drives much of the 
opposition that we are seeing in other gender justice battles. 
That is why at this moment of reckoning on the constitutional 
right to abortion, we need Congress to lead. We think they can 
start with passing laws, such as the Each Women Act and the 
Women's Health Protection Act. Thank you.
    Chairwoman Maloney. Thank you so much. Allie Stuckey.

         STATEMENT OF ALLIE STUCKEY, CARROLLTON, TEXAS

    Ms. Stuckey. I would like to thank Chairwoman Maloney, and 
Ranking Member Jordan, and the rest of the committee for the 
opportunity to appear before the committee today. My name is 
Allie Stuckey. I am an author, a podcast host, a commentator, a 
wife, and a mom. I have spent the last few years studying the 
pro-abortion movement, observing the growing radicalism of the 
abortion agenda, and speaking out about the injustice occurring 
on the state and Federal [level] against preborn children and 
their mothers.
    I am here today as a mom fighting for a future for her kids 
in which rights are not dependent on whether a person is 
wanted, but upon their humanity. I am here as a woman who 
believes that female empowerment, equality, and freedom are not 
defined by her ability to terminate the life of her child. I am 
here as an American, afraid for the fate of a country that no 
longer considers the right to life a prerequisite to liberty 
and the pursuit of happiness. I am here as a human being 
horrified by the violence, the oppression, and marginalization 
of a defenseless people group based solely on where they 
reside, in the womb.
    It's surreal to be here, and not because I'm testifying 
before Congress, but because of the subject at hand. It is 
incomprehensible to me that we are having a debate over whether 
or not it is acceptable to kill a baby before they are born. 
And while we discussed Democrats' concerns about abortion 
restrictions today, I want to remind the committee of the true 
victims of radical legislation, and that is preborn babies.
    There was a time perhaps when we could claim ignorance as 
our justification for allowing and approving of abortion. Only 
a few decades ago, we knew relatively little about preborn 
babies in early stages of development. It seemed appropriate to 
some to deem abortion a privacy issue or an issue of bodily 
autonomy. Even then the motto was ``safe, legal, and rare.'' 
Pro-abortion advocates have abandoned these three 
qualifications in favor of on-demand through all nine months 
for any reason.
    Barbaric laws, like those of New York, Illinois, and a bill 
in Virginia, aim to codify what Roe and its companion cases 
allow, the virtually unrestricted access to abortion until the 
point of birth. As its defendants' position on abortion has 
radicalized, science and technology have advanced. We now know 
that a baby's heart begins to beat as early as six weeks. The 
child can feel pain as early as 20 weeks, only halfway through 
the pregnancy. Babies born as early as 21 weeks' gestation have 
survived outside of the womb. By 24 weeks, still only the 
second trimester, a fetus has a significant probability of 
surviving if born premature. Babies at this age have also 
received lifesaving procedures to treat diseases like spina 
bifida.
    Any woman who has been pregnant or has seen her child on an 
ultrasound knows the undeniable humanity of their preborn 
babies. Even as someone who is pro-life, I was shocked to see 
my daughter in the womb at just 11-and-a-half weeks kicking, 
punching, flipping around. Eleven-and-a-half weeks is still the 
first trimester. Embryology tells us that at the moment of 
conception onward, a baby is a living human being with a 
distinct DNA, and yet the abortion advocates have doubled down 
on their dehumanizing rhetoric and legislative efforts. 
Remarkably many members of the so-called party of science 
insist upon referring to preborn children as no more than 
clumps of cells.
    In speaking of abortion, its defenders ignore the existence 
of the child entirely. Terms like ``reproductive freedom'' or 
``bodily autonomy,'' ``women's empowerment'' are used as 
euphemisms to obscure the reality that the life inside the 
mom's body is a human, a baby, her baby. If abortion were truly 
a winning issue for women, if it were, as an article in New 
York Magazine recently argued, a moral good, this kind of 
deception wouldn't be necessary. But abortion advocates know 
that using accurate terminology to describe abortion is 
ineffective PR, and, therefore, it doesn't make for a 
profitable business model.
    Late-term abortions are typically performed, of course, by 
emptying the uterus of amniotic fluid, then dismembering the 
baby with forceps. There are other cases of more grotesque 
methods utilized, like with Kermit Gosnell. Witnesses before 
Congress have testified to the neglect of babies who survived 
abortions, many of whom were reportedly left to die alone. 
Virginia Governor, Ralph Northam, declared earlier this year 
that a baby who survives an abortion would be delivered, kept 
comfortable, and resuscitated if that is what the mother and 
the family desired.
    While tragic, pro-lifers shouldn't be surprised by pro-
choice radicalism. This is the end of the logic of the pro-
abortion case. There is no logical argument for abortion that 
doesn't also apply to people who are born. America is included 
on a list of only seven countries, including China and North 
Korea, to allow abortion after 20 weeks' gestation. The same 
legislators who are pro-abortion were happy to vote ``yes'' on 
the bill criminalizing animal cruelty on the Federal level. And 
while I'm am thankful for this, I only wish the same basic 
compassion could be extended to the most vulnerable members of 
our own species. Thank you.
    Chairwoman Maloney. Thank you very much. And Marcela 
Howell.

   STATEMENT OF MARCELA HOWELL, FOUNDER AND PRESIDENT,CHIEF 
  EXECUTIVE OFFICER, IN OUR OWN VOICE: NATIONAL BLACK WOMEN'S 
                  REPRODUCTIVE JUSTICE AGENDA

    Ms. Howell. Acting Chairwoman Maloney, Ranking Member 
Jordan, and honorable members of the committee, thank you for 
the opportunity to testify at today's hearing. I would like to 
take a moment first to mourn the passing of Chairman Cummings, 
a fearless champion of human and civil rights. We promise to 
pick up his mantle and continue his fight for universal 
justice.
    I am Marcela Howell, founder and president of In Our Own 
Voice: National Black Women's Reproductive Justice Agenda, a 
national state partnership with eight black women's 
reproductive justice organizations: Black Women for Wellness, 
Black Women's Health Imperative, New Voices for Reproductive 
Justice, SisterLove, Sister Reach, SPARK Reproductive Justice 
NOW!, the Afiya Center, and Women With a Vision.
    Reproductive justice is the human right to control our 
bodies, our sexuality, our gender, our work, and our 
reproduction. That right can only be achieved when all people 
have the complete economic, social, political power and 
resources to make healthy decisions about our bodies, our 
families, and our communities in all areas of our lives. This 
includes the right to choose if, when, and how to start a 
family.
    When it comes to abortion, we focus specifically on access 
rather than rights, asserting that the legal right to abortion 
is meaningless for pregnant people when they cannot access such 
care due to the cost, the distance to the nearest provider, or 
other obstacles. Across the country, we are faced with the 
ever-complicated wave of abortion restrictions that continue to 
compound already existing barriers making access to quality 
abortion care a privilege for the few rather than a human right 
for all.
    After the 1973 landmark Roe v. Wade decision, the Supreme 
Court victory was immediately undermined and invalidated for 
people with low incomes with the passage of the Hyde Amendment. 
As the Guttmacher Institute notes, ``Because of social and 
economic inequality linked to systemic racism and 
discrimination, women of color are disproportionately likely to 
be insured through Medicaid, therefore subject to the Hyde 
Amendment's cruel ban on insurance coverage of abortion.'' The 
decision of when and how to have a family or when to start or 
grow a family is a decision that should be made by a pregnant 
person and those they trust, not politicians.
    Over the last decade, abortion access in the U.S. has 
become increasingly fraught with restrictive laws. Such 
abortion restrictions include everything from parental consent 
laws for individuals under 18, often coercive mandated 
counseling, mandated waiting periods, and unnecessary and 
burdensome regulations on providers and clinics. This web of 
restrictions and bans has ultimately created an unjust 
landscape. As the country grapples with the maternal mortality 
crisis, one that disproportionately impacts black women, 
research has found that the states with the higher numbers of 
abortion restrictions are the exact same states that have poor 
maternal health outcomes. That is not a coincidence.
    Reproductive justice is economic justice. One reason people 
choose to have abortions is because of the significant expense 
of having and raising another child given that many are already 
parents. We cannot afford to endure another abortion ban 
because we are already battling discrimination in healthcare, 
wages too low to put food on the table, debilitating childcare 
costs, attacks on immigrants, and threats to our voting rights. 
These issues cannot be separated or siloed. Together, they are 
an attack on our ability to live with full agency over our 
lives and to raise our children with dignity.
    I thank the committee for its dedication to addressing 
these issues through a lens of justice and equity, and 
centering the valued, lived experiences of marginalized 
communities, including black, Latinx, Asian-American/Pacific 
Islanders, and Native and indigenous women, transgender and 
gender non-binary people, LGBT people, people with low income, 
people in rural communities, those with disabilities, youth, 
and immigrants. I explicitly name us all because all of our 
struggles are tied together, and many of us live at the margins 
of multiple oppressed identities.
    I urge the committee to address these abortion restrictions 
with urgency as we collectively work toward bodily autonomy and 
a world where full reproductive justice can be actualized. 
Thank you.
    Chairwoman Maloney. Thank you. I want to thank all of the 
panelists for your important testimony.
    Without objection, the following members are authorized to 
participate in today's hearing: Congresswoman Chu, 
Congresswoman Schakowsky, Congresswoman Schrier, and 
Congresswoman Lee.
    I will now call on Lacy Clay to begin the questioning. He 
is the originator of this hearing.
    Mr. Clay. Madam Chairwoman, let me thank you again for 
convening this hearing to call attention to the intrusive 
restrictions that are threatening the health and well-being of 
thousands of women in my congressional district and home State. 
In Missouri, we are down to one last abortion clinic. State 
health officials are doing everything in their power to try to 
shut that clinic down. They are trying to regulate Missouri's 
last clinic out of existence by imposing rules and regulations 
that are medically unnecessary, overtly intrusive, or virtually 
impossible for any healthcare provider to comply with.
    And as you heard Dr. McNicholas explain, the health 
department began enforcing a medically unnecessary requirement 
that women submit to an additional pelvic exam three days 
before being allowed to have an abortion. Dr. McNicholas, as a 
physician, is there any medical reason for such a requirement?
    Dr. McNicholas. Thank you for the question, Representative 
Clay. So as I previously stated, and I think you noted as well, 
forcing women to undergo medically unnecessary pelvic exams 
shows clear disregard for the potential traumatic impact that 
that has. We are talking about a country where every 73 seconds 
an American is victimized with sexual assault, and that rate is 
12 times higher for women with intellectual disabilities. 
Within days of having to comply with that mandate, we saw a 
patient, a minor accompanied by her mom, who was a victim of 
sexual assault, who had never had a pelvic exam before, who 
didn't even know what her parts were.
    And as a reminder for those of you who have never had a 
pelvic exam in this room, that means putting your fingers 
inside someone's vagina. Forcing somebody, this minor, never 
having had a pelvic exam, to have that invasive procedure when 
there was absolutely no medically relevant reason to do so, was 
traumatic for her, for her mother, and for the physician who 
was required to do it.
    Mr. Clay. How did that make you and your staff feel?
    Dr. McNicholas. So I can tell you that in the times when we 
had to comply with this regulation, I am not sure who cried 
more, the physicians, the staff, the patients. We had patients 
apologizing to us that we were forced to do this to them. Our 
patients are accustomed to jumping through hoop after hoop to 
get an abortion, so when told they had to do this, too, they 
were resigned to the fact that that was just part of the deal. 
But it was traumatic for everyone.
    Mr. Clay. And if that wasn't outrageous enough, just weeks 
ago we learned that the state staff were ordered to keep 
spreadsheets tracking the menstrual cycles of women who visited 
St. Louis' Planned Parenthood Clinic. Doctor, do you find the 
practice of tracking the dates of patients' periods 
problematic?
    Dr. McNicholas. I find it bizarre and a complete violation 
of the trust that the community puts in the public health 
department, and the trust that our patients put in us. It was 
clearly part of an orchestrated attack on Planned Parenthood, 
and really demonstrates an abuse of power in misuse of data.
    Mr. Clay. And what do you make of the fact that a trained 
physician has imposed these medically unnecessary and intrusive 
requirements on providers and patients?
    Dr. McNicholas. So it is shocking that our department of 
health is headed by a physician, Dr. Randall Williams, and more 
shocking is that he is an OB/GYN. He knows better. But instead 
of relying on the medical ethics that he was taught and the 
many patient experiences that he has had over the course of his 
career, he instead decided that his job was to act at the 
behest of a politician to end abortion as part of a political 
agenda, and forgetting what it is like to treat patients.
    Mr. Clay. What would it mean for patients in Missouri if 
your clinic closes?
    Dr. McNicholas. You know, the consequence of that, there 
are so many consequences to that. Certainly people will be 
forced to carry pregnancies that they can't and shouldn't and 
don't want to, continuing the cycle of poverty for some. Many 
will be forced to travel long distances, expending resources 
they already don't have to access that care. And people will 
have really lost the trust that they have in the state of 
Missouri who would then have abdicated its responsibility to 
providing very basic healthcare.
    Mr. Clay. I thank you for your responses. I thank the 
entire panel for being here today. And, Madam Chair, I yield 
back.
    Chairwoman Maloney. I will now recognize Clay Roy. 
Representative Roy?
    Mr. Roy. I will take the name ``Clay.'' It is all right.
    Chairwoman Maloney. Okay.
    Mr. Roy. Thank you. Thank you, Madam Chairwoman. In 2015, I 
got a call from a young woman who is one of my dearest friends. 
She is like a little sister to me. She said that the baby that 
was in her belly, her third, might be missing part of his 
brain, the part that connects the left and right hemispheres. 
She was terrified and couldn't ask questions fast enough. She 
had a monthly checkup with her OB/GYN the following week. Her 
husband had to work, but she took her two boys with her. They 
liked going to hear the baby's heartbeat, and the checkups were 
usually routine and quick.
    She went into the appointment expecting her doctor would 
reassure her and, in her answer, review the file. Then the 
doctor looked our friend straight in the eye and asked her if 
she wanted to terminate the pregnancy. She called us right 
after that appointment, understandably angry and terrified. 
Terminate? What? She explained the doctor had asked the 
question in the same tone as she might have used when ordering 
coffee at Starbucks. She didn't blink an eye. She asked it in 
front of her two little boys. She asked without her husband 
there. She offered no explanation or comfort. It was cold.
    The doctor told her she had to decide quickly because she 
was approaching 22 weeks, which is as long as you can legally 
wait to have an abortion in Virginia. Our friend's response was 
such a source of pride for us. She told us she almost laughed, 
and then politely responded that termination was not an option. 
She walked out of that doctor's office and never returned.
    So how did it all turn out? Her ultrasound was completely 
normal at 24 weeks. They just couldn't get a good read at her 
20-week appointment. Her baby was born in May 2015 and is 
completely healthy. It was a boy, by the way. None of us, but 
particularly his loving and courageous mother, can imagine life 
without him. He is my godson.
    In the winter of 1996, a couple went in for a checkup. They 
were excited. They had recently been informed they had twins. 
The doctor came in and performed more tests. Time passed by and 
the doctor returned. The doctor seemed concerned as they 
believed the twins had cystic fibrosis. If they were born, they 
would only survive for a few hours, they were told, if that. 
``I recommend termination,'' said the doctor. The couple said 
the first thing that came into their mind, no, and walked out. 
They chose life. Those twins would grow up to become excellent 
men. I know this because Jonah works for me right here. He's 
one of my staffers.
    Ms. Stuckey, Planned Parenthood is not about healthcare. It 
is about abortion, no?
    Ms. Stuckey. Yes.
    Mr. Roy. Planned Parenthood that took in $1.67 billion in 
total revenues, a 14 percent increase over the year before. 
Private donations totaled $630 million. Does that sound right 
to you?
    Ms. Stuckey. Yes.
    Mr. Roy. Government funding amount to $563 million of that 
amount. Does that sound right to you?
    Ms. Stuckey. Yes.
    Mr. Roy. Planned Parenthood received nearly $60 million 
dollars annually under Title X under the Protect Life Rule, 
which ensures compliance with statutory prohibition against 
using Title X funds for programs where abortion is a method of 
family planning. In August 2019, Planned Parenthood confirmed 
they would withdraw from Title 10 funding rather than comply 
with the new rule. Does that sound right to you?
    Ms. Stuckey. Yes.
    Mr. Roy. Do we need Planned Parenthood for healthcare for 
women?
    Ms. Stuckey. Planned Parenthood is not in the business of 
healthcare. They are in the business of abortion as they 
demonstrated by refusing Title X care. They could have 
financially and physically separated their abortion services 
from the rest of their healthcare services, but they refused to 
do that. They have decided that abortion is central to their 
mission, which is exactly why they fired CEO Leana Wen, who, in 
her words, was ousted because she didn't prioritize abortion 
high enough.
    Mr. Roy. That is right, and if I might direct you to the 
chart behind me, in Texas we have 301 rural health clinics in 
Texas, 434 federally qualified health centers, to total 735 
federally funded community health clinics. There are 327 
pregnancy centers, 130 of which are medical pregnancy centers. 
And according to the Planned Parenthood website, there are 40 
Planned Parenthood centers in Texas. Does that number sound 
right to you?
    Ms. Stuckey. Yes.
    Mr. Roy. Does Texas, at least in the state which I 
represent, provide healthcare solutions for women throughout 
the state of Texas.
    Ms. Stuckey. Yes, they do. I am from Texas as well.
    Mr. Roy. Yes, ma'am. Texas's Program, Healthy Texas Women, 
was established in 2016, has been helping women in Texas with 
services and with more providers than Planned Parenthood. Does 
that sound right to you?
    Ms. Stuckey. Yes.
    Mr. Roy. In Fiscal Year 2018, Healthy Texas Women served 
172,000 clients. According to the Planned Parenthood website of 
Greater Texas, in 2018 Planned Parenthood served only 83,000 
patients compared to that larger number, and it has only been 
in existence since 2016. Does that sound right to you?
    Ms. Stuckey. Yes.
    Mr. Roy. My point is simply this. The state of Texas I can 
speak to. I can't speak to the other 49 states. We take women's 
health very seriously, and we should. We should entities and we 
should allow the market to thrive, and, frankly, if we could 
get some of the regulations out of the way of a healthy 
healthcare system, we could have more options. But could you 
please, as my time is running out, please share your view of 
the ways in which we can provide healthcare and better ways 
than allowing an organization like Planned Parenthood, which 
takes unborn babies, puts them in plastic bags, and throws them 
in garbage bins, to be the center of healthcare provision for 
women? Thank you.
    Ms. Stuckey. Abortion is not healthcare. I think that's all 
I have time for.
    Chairwoman Maloney. The chair now recognizes Congresswoman 
Norton.
    Ms. Norton. I thank you very much, Madam Chair. Dr. 
McNicholas, just to follow up here. What kind of health 
services do you provide?
    Dr. McNicholas. I appreciate that question, Ms. Norton. So 
Planned Parenthood provides a broad spectrum of reproductive 
healthcare services, including well people care, cancer 
screenings, the full spectrum of birth control options, 
transgender care, primary care. Some Planned Parenthoods also 
provide prenatal care, and the list goes on.
    Ms. Norton. So it look like you provide the kind of across-
the-board care that a young woman may need. You go in this one 
stop fits all.
    Dr. McNicholas. The goal is to meet our patients' needs 
both in the clinical services that they need and require and 
that the community needs, and also to make sure that it is 
accessible for them.
    Ms. Norton. And abortion would be only one of those 
services.
    Dr. McNicholas. That is correct.
    Ms. Norton. I have a question. Perhaps I should start with 
Ms. Graves or perhaps also Dr. McNicholas. I represent 700,000 
residents. They pay the highest Federal taxes-this is a little-
known fact-highest Federal taxes per capita in the United 
States. We are trying to make the District of Columbia the 51st 
state, but when look at where there are intrusions into 
healthcare, you will find that they are all Federal bans that 
include Federal employees, Federal prisoners who are included 
in this list, low-income residents of the District of Columbia.
    Our jurisdiction wants to provide on their own, pay for 
abortion services for low-income women the way almost 20 states 
already do. We are not demanding that the Federal Government 
does this. My question is, why we are finding that restrictions 
on coverage are related to economic mobility for women on 
coverage for abortion and others such as services? And 
apparently there is a correlation here for not only for women 
generally, but especially for women of color. So why do 
restrictions on abortion relate to economic mobility? Why are 
they correlated in that way?
    Ms. Goss Graves. Well, I very much appreciate you raising 
that issue also as a resident of the District that lacks the 
range of voting rights that you described. And oftentimes there 
has been a deep focus on the levels of restrictions that are in 
places like Missouri. But even in the District, because of 
restrictions on insurance, for low-income women, in particular, 
what that means is that abortion is inaccessible and 
unavailable, and having to scrap together the money to be able 
to afford it is not possible.
    And what it also means is that for the most vulnerable of 
folks, the right to abortion does not feel very meaningful. And 
that connection between the ability to have economic security 
for yourself and for your family is deeply tied to your ability 
to access the healthcare you need. This is a travesty that is 
deeply felt by people who live in the District, in part 
because, you not only have the restrictions on like Medicaid. 
You also see them show up in Federal health insurance, and so 
many people who live here are also working for the Federal 
Government.
    Ms. Norton. So you can see that there are many reasons why 
the District of Columbia wants to become the 51st state. I just 
want to say to my Republican colleagues, you know, whose mantra 
is we want government out of our business, my friends on the 
other side of the aisle vote against the government doing 
things which the American people want government to do. All the 
District of Columbia is asking is that you get out of their 
business so that we can deal with our business alone.
    Thank you very much, and I yield back.
    Chairwoman Maloney. The chair recognizes--
    Mr. Connolly. Might I just yield to her 20 seconds? Ms. 
Norton, would you yield?
    Ms. Norton. I will be glad to yield.
    Mr. Connolly. I thank my friend. I just wanted to give Dr. 
McNichols an opportunity. We just heard a stunning statement 
that Planned Parenthood is not in the health care business, 
doesn't provide health care. I want to give you the opportunity 
to respond to that. Thank you.
    Dr. McNicholas. I appreciate the question. Abortion is 
health care, and I think the best way to demonstrate that is to 
share a story about a patient who, when unable to access her 
abortion, died, because her comorbidities and the complications 
she had prior to pregnancy worsened during that.
    A patient from out of state visited my clinic for a 
consultation after understanding that her current medical 
condition would worsen with pregnancy. She returned to her out-
of-state home, having to wait the mandated amount of time 
between those visits before she can receive that care. When she 
didn't return and we called to followup we were later told that 
she passed away from complications of her pre-pregnancy medical 
condition.
    This is the very definition of why abortion is health care 
and is needed and is necessary, when people need it, where they 
live.
    Chairwoman Maloney. Thank you very much. Dr. Foxx.
    Ms. Foxx. Thank you very much, Chairwoman.
    Dr. McNicholas, earlier this year, Governor Northam of 
Virginia said, ``If a mother is in labor I can tell you exactly 
what would happen. The infant would be delivered, the infant 
would be kept comfortable, the infant would be resuscitated, if 
that is what the mother and the family desired, and then a 
discussion would ensue between the physicians and the mother.''
    Do you support Governor Northam's comments?
    Dr. McNicholas. So I can't speak for Governor Northam, but 
what I can say is that there is no way to oversimplify the- 
sort of the medical conditions in which people present in the 
second trimester, that I think that he was referring to.
    Ms. Foxx. So as a physician, then, what would be the harm 
in legislation such as the Born Alive Abortion Survivors Act, 
to make sure that a child born alive would not be put to death?
    Dr. McNicholas. So there are several harms. The first is 
which, using that language and perpetuating the notion that 
that is actually a real thing is harmful in and of itself, and 
it only serves two purposes. The first is to shame people, like 
Jennie, who need life-saving care in the second and third 
trimesters of pregnancy. It also creates an environment in 
which abortion providers like myself and my colleagues are 
targeted and harassed. So first and foremost, it is dangerous 
for those reasons.
    The second reason is because medicine is complicated. There 
really is no way for me to boil down more than a decade of 
education and practice to give you a single reason why doing 
such things is harmful to patients.
    Ms. Foxx. The answer should have been either yes or no.
    Earlier this year, thousands of fetal remains were found in 
the home of deceased abortionist, Ulrich Klopfer. Who do you 
believe- do you believe that all fetal remains should be 
disposed of in a manner that treats them with dignity and 
respect?
    Dr. McNicholas. Just like I believe that patients are 
capable of making a decision to continue their pregnancy or 
not, to expand their family or not, I believe that patients are 
capable of deciding what should happen to the remains of their 
pregnancy.
    Ms. Foxx. So is it okay for those fetal remains to be sold 
for profit by Planned Parenthood?
    Dr. McNicholas. Planned Parenthood has never sold fetal 
tissue, and current doesn't, and never has.
    Ms. Foxx. Does Planned Parenthood v. Casey give states the 
authority to regulate abortion in accordance with the opinions 
of their respective constituencies?
    Dr. McNicholas. I believe that the most recent decision, 
and we have some policy experts on the panel who can speak more 
to this, but the more recent decision in Whole Women's Health 
set a precedent that restrictions must be based and grounded in 
science, and that is all we are asking for is that abortion is 
treated to the current standards of medical evidence and 
science.
    Ms. Foxx. Ms. Stuckey, thank you very much for being here. 
Are there more federally qualified health centers than abortion 
clinics in the United States?
    Ms. Stuckey. Thank you for the question. Yes, the ratio is 
about 26 to one of health care centers that are federally 
funded, to Planned Parenthoods.
    Ms. Foxx. And which offers more comprehensive health 
services to women?
    Ms. Stuckey. Of course, the health care centers that are 
not Planned Parenthood.
    Ms. Foxx. So if we wanted to support access to 
comprehensive health care services for women, would we be 
better off supporting abortion clinics or federally qualified 
health care centers?
    Ms. Stuckey. The federally qualified health care centers.
    Ms. Foxx. Thank you. In 2005, a Planned Parenthood-funded 
study found a majority of women seeking an abortion did so 
because having a baby would interfere with education and work, 
cost too much, or they did not want to be a single mother or 
having relationship problems. What are your thoughts on the 
findings of this study?
    Ms. Stuckey. It shows that- it belies this notion that 
abortion is only used in very extreme cases. The extreme, rare 
cases are typically used to cast pro-lifers into a negative, 
extremist, radical, misogynous light, which is just not 
accurate. The majority of abortions, according to Planned 
Parenthood's own research, are done on the basis of 
convenience, and I just don't see a logical or moral 
justification for killing an unborn child on the basis of 
simply not being wanted.
    Ms. Foxx. Thank you. Madam Chair, earlier Dr. McNicholas 
said that Dr. Williams was a physician and had taken an ethics 
oath and show know better than to do what he had done. I just 
want to quote from the classic Hippocratic Oath: ``I will use 
those regimes which will benefit my patients according to my 
greatest ability and judgment, and I will do no harm or 
injustice to them. I will not give a lethal drug to anyone if I 
am asked, nor will I advise such a plan, and similarly, I will 
not give a woman a pessary to cause an abortion.''
    Dr. McNicholas, did you swear a Hippocratic Oath when you 
were licensed?
    Dr. McNicholas. I did, and I continue to live that every 
single day.
    Ms. Foxx. Amazing.
    Madam Chair, Mr. Roy asked me if I would enter into the 
record this article.
    Chairwoman Maloney. Without objection.
    Ms. Foxx. Thank you, Madam Chair. I yield back.
    Chairwoman Maloney. The chair now recognizes Representative 
Lynch.
    Mr. Lynch. Thank you, Madam Chair. I want to thank you for 
holding this hearing, and also to my friend and colleague, the 
gentleman from Missouri, Mr. Clay, thank you for your 
leadership as well.
    I want to thank all the witnesses here today, especially 
Ms. Box- Mrs. Box, for your willingness and your courage to 
come before this committee to share our own experience, and all 
of you for sharing your perspectives.
    As I noted in my op-ed in the Boston Globe back in May, 
when this onslaught of state legislation arose, in Missouri, 
Alabama, Ohio, and Georgia, the legislatures have recently 
adopted draconian measures on abortion. Alabama has banned 
abortion at any stage of pregnancy, apparently even in the case 
of rape or incest, while several other states have banned 
abortions as early as six weeks, which, as some of our 
witnesses have noted, is often before many women would even 
know they are pregnant. In Georgia, a woman terminating a 
pregnancy after six weeks could be charged with homicide.
    These laws are far more punitive than those in place before 
the Roe v. Wade decision. They are so intrusive and so 
restrictive that the basic core constitutional right to privacy 
and protection from government intrusion into health care 
decisions would be effectively and totally eliminated. 
Meanwhile, other states are actively considering similar 
restrictive measures.
    This all occurs against a backdrop in which Republicans in 
Congress have repeatedly attempted to eliminate women's access 
to contraceptive services offered by groups such as Planned 
Parenthood, ironically, even though those contraceptive 
services actually prevent unwanted pregnancies, and thereby 
reduce the number of unwanted pregnancies and abortions. 
Ironically, and seeking to shutter many of these clinics, they 
would also be cutting off expectant mothers, especially in 
those low-income areas, who rely on their services for the 
prenatal and postnatal care they need to ensure that they have 
safe and healthy pregnancies.
    It is to be noted that to be pro-life includes supporting 
the health of pregnant women. It includes feeding and educating 
and housing children. Simply opposing abortion does not make 
you pro-life.
    The Supreme Court's decision on reproductive rights, as 
controversial as they may be in our country, have sought to 
acknowledge and balance the constitutional interests that are 
at stake on this issue. And while critics are bound, even 
without the onslaught of restrictive state legislation, the 
number of abortions that are performed in the United States 
each year has dropped dramatically, and that is largely due to 
the impact of effective and widely available contraception, 
family planning, and education.
    Women are and should be in charge of their reproductive 
health, and their efforts to reduce unwanted pregnancies are 
actually working, all of which leads many to believe that the 
timing and the similarities of this multistate campaign reveal 
a purely political strategy to energize and motivate the 
religious right, and that is truly shameful.
    While I am personally informed by my faith, my actions as a 
legislator must be in support of, in defense of the 
Constitution. That is the oath that I took and I stand by it. 
And as I said back in May, if these recent developments, 
closing all clinics, obstructing contraceptive services, 
denying women every option in their health care decisions, if 
this defines the new pro-life movement then you can count me 
out.
    I have one question for either Counselor Graves or Ms. 
Howell, and thank you for your kind words regarding Mr. 
Cummings. So there are millions of women each year- and Ms. 
McNicholas, you might have some - Dr. McNicholas, you might 
have some input on this as well - if we have millions of women 
who come to Planned Parenthood and other contraceptive services 
providers, and yet the government steps in to deny funding- and 
this came to the floor. I spoke against it. This actually came 
to the floor when the Republicans were in control of the House, 
and they proposed to zero out- zero out- any Federal funding 
for Planned Parenthood to carry on its contraceptive services. 
What would the impact on the abortion rate be, the rate of 
unwanted pregnancies and the abortion rate, if that measure had 
been implemented?
    Dr. McNicholas. So I think you raised a very important 
point, which is one of the strategies- one of the best 
strategies we have to reduce unintended pregnancy is- it is 
actually multilayered. It is, first, improving the sexual 
education that we provide to our young children, helping them 
know how their body works and being very positive about 
understanding how sex works and how you get pregnant.
    Second, it is providing them access to the available 
contraceptive method of their choice when they need it, and 
without barrier, including going to a clinic in their 
neighborhood, making sure that it is affordable for them, and 
making sure that they can change that method as often as they 
need to, when their history or their preference changes.
    Mr. Lynch. Counselor Graves, on this, do you want to add to 
that?
    Ms. Howell. Many people actually go to Planned Parenthood 
for a number of different health care services. They go not 
only for birth control but also to have tests for diabetes, for 
mammogram screenings. A lot of the people that we represent, 
and that we work with, go to Planned Parenthood clinics as 
their primary provider. And so to remove services that they 
think are vital to them, because people are opposed to the fact 
that some Planned Parenthoods also do abortions, means that you 
are cutting off health care for people who most desperately 
need it.
    Mr. Lynch. Thank you.
    Ms. Goss Graves. The only thing I would add, it is a good 
opportunity for me to correct something Ms. Stuckey said about 
Planned Parenthood. We should be really clear about what 
happened with this gag rule that the Administration put out.
    Planned Parenthood wanted to do right by its patients. It 
was not going to lie to them. It was not going to misinform 
them. And the idea that we are now in a situation where 
providers are being forced to make that sort of decision about 
whether or not they can continue to serve the lowest income 
population in communities is really, really terrible, and 
patients are going to suffer for it.
    Mr. Lynch. Thank you very much. Madam Chair, I yield back.
    Mr. Hice. Madam Chair, I have a unanimous consent request. 
I have a unanimous consent request.
    Okay. Thank you, Madam Chair. Being from Georgia I just 
want to clarify that the law is not according to what was just 
identified by my colleague, and I would like to ask unanimous 
consent to be added into the record an article by David French 
that goes into the details of the law that the Georgia 
Heartbeat Bill would not imprison women who have an abortion.
    Chairwoman Maloney. Without objection.
    Chairwoman Maloney. I now recognize Mr. Massie.
    Mr. Massie. Thank you, Madam Chair.
    Dr. McNicholas, what is the medical consensus for age of 
viability of a fetus?
    Dr. McNicholas. I appreciate the question. So viability is 
a complicated medical construct. There is no particular 
gestational age. There are some pregnancies in which a fetus 
will never be viable. There are a number of different factors 
that we think about when we are considering if a pregnancy is 
or is not viable.
    Mr. Massie. So is there a legal consensus on the age of 
viability?
    Dr. McNicholas. Not to my understanding, but I am a 
physician, not a lawyer.
    Mr. Massie. In your 10 years as a doctor, how many 
abortions have you performed?
    Dr. McNicholas. So I provide a variety of different 
services, and as you--
    Mr. Massie. I am not asking about the other services.
    Dr. McNicholas. Right.
    Mr. Massie. How many abortions have you performed?
    Dr. McNicholas. So I can't tell you how many hysterectomies 
I have done and I can't tell you how many abortions I have 
done. I have had a long career taking care of people for a 
variety of things.
    Mr. Massie. So you manage a facility. Can you tell me- or 
you are the medical overseer- can you tell me how many 
abortions the facility in Missouri performs each week?
    Dr. McNicholas. I can tell you- I believe it is probably 
available, so I can give you a rough estimate of how many 
abortions we perform per year, which is, I think roughly around 
3,000.
    Mr. Massie. How do you dispose of 3,000 fetuses every year?
    Dr. McNicholas. So Missouri has a state law that requires 
that we send all of the remains of pregnancy to pathology.
    Mr. Massie. What is the latest-term abortion that you have 
performed, like gestation period, in weeks?
    Dr. McNicholas. So my practice includes the provision of 
abortion up until the point of viability, and again, we already 
had a discussion about viability not being----
    Mr. Massie. So just give me the number in weeks them.
    Dr. McNicholas. I don't know.
    Mr. Massie. You don't remember the number of weeks?
    Dr. McNicholas. That is correct. So I--
    Mr. Massie. What about size of the unborn baby? Do you know 
the largest baby that you have aborted?
    Dr. McNicholas. I am not sure how I would even quantify 
that.
    Mr. Massie. If I use the word fetus could you- do you know? 
You have no idea the age or gestational period of the fetuses 
that you are aborting.
    Dr. McNicholas. So again, as I said, my practice includes 
abortion care through the point of viability, and as we 
previously discussed, that could be--
    Mr. Massie. Let me put it this way.
    Dr. McNicholas [continuing]. at any point, yes.
    Mr. Massie. Is there any point of gestation beyond which 
you personally would not abort a fetus?
    Dr. McNicholas. You know, medicine is not black and white. 
I recognize, in my 10 years of practice, informs this opinion, 
that pregnancy can be really complicated, and given that there 
are pregnancies for which a fetus may never be viable, I think 
it is really important that we allow physicians and patients to 
have every medical resources to make decisions that are 
appropriate for them and their health.
    Mr. Massie. In the absence of a law preventing it, would 
you abort a viable fetus?
    Dr. McNicholas. Again, every patient is different and I 
can't make any--
    Mr. Massie. I am just asking about a viable fetus. If the 
law didn't prevent it, would you consider it a limitation, 
morally, for you to abort a viable fetus?
    Dr. McNicholas. So I think you are forgetting that there a 
number of reasons that go into a patient's--
    Mr. Massie. If the reason--
    Dr. McNicholas [continuing]. choice.
    Mr. Massie. At your clinic, does it matter what the reason 
is for the abortion?
    Dr. McNicholas. At my clinic, I trust that women have a 
valid reason. Every reason that they have is valid.
    Mr. Massie. Okay. So given that you think that every reason 
is valid, would you abort a viable fetus, if there was not a 
law preventing it?
    Dr. McNicholas. Again, given that the reality for people 
choosing abortion is that there are many reasons, there isn't a 
single thing that defines somebody's choice.
    Mr. Massie. You seem to have a--
    Dr. McNicholas. It is a reflection of their--
    Mr. Massie [continuing]. hard time- you seem to have a hard 
time saying this. This tells me you have a heart, or at least 
you know that people watching this have a heart, and they would 
be concerned if you would just admit, but you won't admit here, 
that you would abort a viable fetus for any reason if the law 
did not prevent it.
    Dr. McNicholas. Mr. Massie, abortion is moral. It is 
important. It is health care. And I support people being the 
experts in their own lives and making decisions for themselves.
    Mr. Massie. It gives me some hope that you here understand 
that people do not support you when you abort- when you say- or 
if you would say that you would abort a viable fetus for any 
reason. But given what you told us in your opening statement, 
and knowing what you have said, we know that you would. But it 
does give me hope that you still know, in your heart, that is 
wrong.
    Mrs. Stuckey--
    Dr. McNicholas. I am not sure- can I respond to that really 
quickly?
    Mr. Massie. If you would answer my question you could, but 
you won't, so I am going to use my remaining time asking Mrs. 
Stuckey, should any reason be a good reason for having an 
abortion?
    Ms. Stuckey. Absolutely not. It is a child. It is a life 
inside the womb from the moment of conception onward. And I am 
very troubled by how flippantly she said that there are 3,000 
abortions performed every year, of defenseless human beings, 
and the remark that abortion is moral--
    Mr. Clay.
    [Presiding.] The time has expired.
    Ms. Stuckey. You cannot have that kind of logic--your 
lifestyle.
    Mr. Clay. No. The time has expired. I recognize--
    Mr. Hice. You gave the others over two minutes, Mr. 
Chairman. Mr. Chairman, we need to be fair on both sides of the 
aisle, please.
    Mr. Clay. You want to finish your answer?
    Mr. Massie. Please. I would like for her--
    Mr. Clay. No, no. Finish your answer. Go ahead.
    Ms. Stuckey. I don't quite understand the illogic of saying 
that killing a child inside the womb for any reason whatsoever 
is moral, it is health care. In what other situation, besides 
when a child is defenseless in the womb, do we call killing 
someone health care, do we call killing someone moral? Can 
anyone on the pro-abortion side tell me a situation, outside of 
a defenseless child inside the womb, in which it is morally 
justifiable to kill someone simply because they are not wanted?
    That is the answer that I would like. That is the question 
that I have. I, unfortunately, don't think anyone is able to 
answer it for me.
    Mr. Clay. I recognize the gentlewoman from Illinois, Ms. 
Kelly, for five minutes.
    Ms. Kelly. Thank you, Mr. Chair, and thank you for this 
hearing.
    My Republican colleagues have suggested that earlier 
restrictions on abortion have become necessary because advances 
in medicine are moving the point of viability earlier and 
earlier. Dr. McNicholas, I am interested in hearing your 
thoughts on this point.
    Dr. McNicholas. Thank you for the question. So I think, as 
I previously alluded to, viability isn't an easy thing to 
assess. It requires--
    Ms. Kelly. It is different with every pregnancy.
    Dr. McNicholas. That is exactly right. It requires 
knowledge of multiple things about any individual's pregnancy.
    Ms. Kelly. Thank you for clarifying. First of all I want to 
thank the witnesses for being here. Thank you for sharing your 
story with us. And I want to let you know that I was a proud 
board member of Planned Parenthood in Peoria, and I am very 
proud that my state of Illinois is an oasis in the sand, very 
proud that we are a shining light in the dark.
    And, Mrs. Stuckey, you said you want to see the same basic 
compassion. You made that comment. Well, I wanted to see the 
same basic compassion for maternal mortality. I had to water 
down the bill I had because the compassionate Republicans, not 
one would sign onto the bill to extend Medicaid.
    We have not been able to get a gun violence prevention bill 
passed because we don't have the same basic compassion once the 
unborn fetus becomes a baby, and they grow up. We don't seem to 
have compassion in that area. We don't have the same compassion 
when it comes to feeding our young people. We don't seem to 
care about that. We are looking at cutting that, so 500,000 
people don't have the food they have.
    So where is the compassion once you are born? That is the 
question I have?
    Ms. Stuckey. Well, Ms. Kelly, thank you so much for 
bringing up these points, because I agree that we should have 
compassion from the womb to the tomb. That is what I believe. I 
don't necessarily--
    Ms. Kelly. It is not fair.
    Ms. Stuckey [continuing]. I don't necessarily agree with 
all of your legislative solutions to that. I do believe the 
private sector does a much better job. But your premise is that 
these things are mutually exclusive, that we either have to be 
on your side of the debate, and for violently murdering 
children inside the womb--
    Ms. Kelly. No, you never heard me--
    Ms. Stuckey [continuing]. or we are not--
    Ms. Kelly [continuing]. no, I am just saying--
    Ms. Stuckey. They are not mutually exclusive.
    Ms. Kelly [continuing]. you are saying we are violently 
murdering, but there is a lot of kids being murdered every 
day--
    Ms. Stuckey. And why can't we care about--
    Ms. Kelly [continuing]. and we don't do anything about 
that. I am reclaiming my time. Reclaiming my time.
    In the wake of many draconian measures, my own state of 
Illinois recently signed into a law a bill to protect abortion 
access for our residents. The Illinois Reproductive Health Act 
ensures coverage for abortion care and updates clinic 
regulations to lift that burden from abortion providers.
    Ms. Goss Graves, how does eliminating coverage bans improve 
access to abortion care for women who are working to make ends 
meet?
    Ms. Goss Graves. It will mean that the right to abortion, 
which has been legal for almost 50 years, will actually be a 
right that is accessible for women, for women no matter their 
income. Whether or not that right is accessible to you should 
not be depending on your financial means. That is not what the 
court said.
    Ms. Kelly. Because the other thing we never talk about is, 
you know, wealthier women who tend not to be women of color, 
they have been having abortions for a long time, whether they 
are in red states or blue states, or however they vote--
    Ms. Goss Graves. That is right.
    Ms. Kelly [continuing]. or whatever their political 
interests are. And how will rolling back targeted regulations 
of abortion providers improve access?
    Ms. Goss Graves. Here is what we know. These targeted 
regulations of abortion providers are designed really to shut 
down clinics. They are designed to shame patients. They are 
designed to confuse people and disrupt the doctor-patient 
relationship. All of that makes abortion less accessible. And 
all of that- I mean, listening--I have to say, the rhetoric 
that is surround it, on top of the sorts of regulations and 
restrictions, have made all of this so difficult for people who 
are just trying to live their lives and get the health care 
that they need.
    Ms. Kelly. And I know from a lot of college students that 
they are not going to Planned Parenthood to get an abortion. 
They are going for health. That is their place of choice to get 
health care, not for abortions.
    Dr. McNicholas. Yes. Planned Parenthood is very proud to be 
able to provide services to people who are financially 
insecure, and to do that in a way that serves their needs and 
respects their dignity.
    Ms. Kelly. Thank you, and I yield back my time.
    Mr. Clay. The gentleman from Georgia, Mr. Hice, is 
recognized for five minutes.
    Mr. Hice. Thank you, Mr. Chairman. It seems to me that a 
lot of this debate and argument centers around whether or not 
the baby is a person or a fetus, and I recognize that many on 
the other side of the aisle refuse to recognize the baby as a 
baby, refuse to recognize it is a person, it is humanity.
    Ms. Stuckey, there have been a lot of medical advances, 
certainly, over the last several decades. Can you tell us about 
some specific scientific evidence supporting the personhood, 
the humanity of the baby, and the viability?
    Ms. Stuckey. Well, embryology tells us- thank you for your 
question, first of all- embryology tells us that the child, 
from the moment of conception, has a separate DNA, and so when 
we hear these euphemisms thrown around, like my body, my 
choice, immediately obscuring the life of the child, it shows 
me that the pro-abortion argument doesn't deal with fact. It 
deals with feeling, which is exactly why we have had such a 
hard time getting any kind of clear answer from any of the 
panelists of what abortion actually is. What does it do? 
Because, talking about tearing a child apart, limb by limb, 
with forceps just isn't a very good P.R. strategy for Planned 
Parenthood or the abortion industry.
    All I am trying to do is to remind us, when we are having 
this conversion, that there are two people. There are two 
people. And I don't believe we have to pit a mother against her 
child in order for a woman to be successful.
    We talked about, you know, legislative solutions and 
showing compassion for children after they are born. I 
absolutely believe in that. Every pro-life pregnancy center 
that I have ever been a part of, that I have ever donated to, 
they don't just counsel women. They also offer parenting 
classes. They are also offering help from abusive situations. 
They are offering programs for these young women to be able to 
get affordable baby clothes and baby products and things like 
that.
    Every pro-life organization I know cares about children, in 
the womb, after they are born, and the mother, who is pregnant 
with these children. That is what I am trying to argue, that 
let's not ignore the scientific reality that a baby is a baby, 
and, therefore, in my opinion, is deserving of the right to 
life.
    Mr. Hice. In a way this is even going beyond abortion in 
the womb. As we all were horrified, many of us, Virginia 
Governor Ralph Northam, and his description of however it could 
possibly be described as a post-birth abortion, one of the most 
horrifying things I have ever heard in my life, where the baby 
would just sit there on the table and we would decide what to 
do with it. How do you respond to this?
    Ms. Stuckey. Yes. That is a great point that you bring up. 
Unfortunately, this has been a reality in other places across 
the country. We like to act like this is not a thing. The CDC 
itself says that over a span of 11 years, at least 143 babies 
were born alive and then not resuscitated, or born alive and 
not attended to and cared for. Only six states actually require 
this kind of reporting, so the number of 143 is probably a lot 
higher than that.
    So what we see, that this is not just a degradation of 
children inside the womb. It is a degradation of babies, in 
general. It is a degradation of life based on whether or not 
this child is wanted by the mother. And again, I ask, in what 
other context, in what other stage of life do we decide that 
someone gets to die simply because they are not wanted? And not 
provoke a slippery-slope fallacy, but truly, what we have seen 
from Governor Northam's statements and from other statements 
that we have heard, is that it truly is a slope. There is a 
logical and a moral slope to this, and it seems like the pro-
abortion side is sliding down very quickly.
    Mr. Hice. Well, and to that point- and I think it is, 
likewise, an excellent point you brought forth a while ago, 
Planned Parenthood's own study, that the majority of women have 
abortions not because of their own personal health but because 
of convenience sake, whether it be a job or whatever it may be.
    How does those findings from Planned Parenthood itself 
undermine the narrative, particularly about late-term 
abortions, that it has something to do with the health of the 
mother?
    Ms. Stuckey. Yes, and we can have conversations about the 
health of the mother in those very rare circumstances. But as 
you mentioned, and that Planned Parenthood has noted the vast 
majority of cases are for any reason whatsoever, including just 
not wanting a child, it not being convenient, wanting to finish 
school. And if the pro-abortion side were honest, they are 
completely fine with that. They are completely open to the 
normalization- there are organizations now that exist to 
normalize abortion, to destigmatize abortion. That means that 
they believe abortion to be not only normal but good.
    Actually, we heard the doctor say that she believes that 
abortion is good. If you believe that abortion is morally good, 
of course you don't think it should be limited to the life of 
the mother or any of those very rare circumstances. It is all 
nine months, on demand, without apology. That is the new motto 
of the pro-abortion side.
    Mr. Hice. And the fact is the baby is a person, and for 
that reason how could it be moral to kill it?
    Ms. Stuckey. I don't know what else it is if it is not a 
person.
    Mr. Hice. Thank you. I yield back.
    Mr. Clay. The gentleman yields back. I recognize the 
gentlewoman from Michigan, Mrs. Lawrence, for five minutes.
    Mrs. Lawrence. Thank you, Mr. Chairman, and I am glad to be 
here for this hearing. This hearing should be substantive 
discussion on how to expand access to care for women. I am 
disappointed that my Republican colleagues are using this 
hearing to make such blatantly false claims, the young lady who 
speaks in generalization. And for the record, while one side 
calls themselves pro-life, there is not a person I know that 
says they are pro-abortion. They are pro-choice.
    So abortions are not infanticide. That is not how abortion 
works, and this type of deceptive rhetoric is yet another 
attempt to distract from efforts to make abortion out of the 
reach for women, to shut down clinics.
    And just constantly I have had this debate a number of 
times on this panel. The mistruths that are spoken about, 
ripping full-sized babies out of wombs and killing them, that 
is not true. Selling of parts is not true. And it just seems 
like it is enjoyed to say, because it paints this horrific 
picture, and we should say the truth, statistics.
    Mrs. Box, I am so sorry to hear about the pain your family 
had to suffer, and thank you for bringing your beautiful baby 
in the room. Have you considered whether this law that is being 
proposed or passed in Missouri would have prevented you from 
having an abortion if it had existed two years ago?
    Ms. Box. Thank you. It absolutely would have prevented me 
from having an abortion. At eight weeks, which is when the ban 
that my state legislature passed, it is impossible to know of 
the chromosomal abnormalities, as far as my understanding. I am 
not the doctor here today. We did the early genetic testing 
because I am of advanced maternal age- another one of my not-
favorite terms--
    Mrs. Lawrence. Yes.
    Ms. Box [continuing]. and so believe that we found out 
before most women and families would find out, because we found 
out earlier. Most people would not find out until the 20-week 
anatomy scan. And I can say that after Libby I was obviously 
able to successfully get pregnant again, as evidenced by 
beautiful daughter, who is now being quiet, thankfully. So I 
was pregnant during the time that the state legislature was 
enacting this ban and that Governor Parsons signed this into 
law.
    And at our 20-week ultrasound for Astrid they couldn't get 
a couple of views of the heart. Everything looked good. 
Physicians weren't concerned. But what should have been a happy 
day, to know that we were having a successful pregnancy- 
because a pregnancy after a fetal diagnosis is a very stressful 
pregnancy- ended with me being in the car, my husband and I 
walking out of the appointment, and me being in the car sobbing 
hysterically, because they wouldn't see me again until I was 24 
weeks along, and in Missouri- because they weren't worried, 
right? That was my next regularly scheduled appointment. And in 
Missouri, that would have been too late. And what I kept saying 
to Jake, to my husband, is, ``What if they find something 
devastating now? I can't protect my daughter.''
    And I understand that Mrs. Stuckey and I don't agree on 
things, but I would like to ask you to remember that you are 
calling me and my husband murderers, and you believe in 
compassion and love, and I would ask for compassion and 
respect, ma'am, when you speak about these decisions, because 
Americans make these decisions that are difficult and personal, 
and we deserve to be treated with respect, whether or not you 
condone our choice. I don't need your approval, Mrs. Stuckey, 
but I would ask for your respect.
    Mrs. Lawrence. I appreciate what you are saying. In the few 
minutes I have left I just want to bring another issue to the 
table. We, in this country, have the highest maternal mortality 
rate of any civilized country in the world, and for women to be 
dying to give birth in America is unacceptable. And with the 
same energy that we are making health decisions and decisions 
about our bodies, and we should, as women in America, have the 
same choices that men have, without the government telling them 
what to do.
    I often use the comparison because now there is discussion 
about birth control. I would love to have a debate about Viagra 
and whether the government should regulate or restrict Viagra 
for me. That has never been on the table.
    And so women, we are targeted, and for us to have the same 
passion of a discussion about saving women who want to have 
their babies, and this medical industry is failing us, we need 
to have the same passion.
    I yield back my time.
    Mr. Clay. The gentlewoman's time has expired. I want to say 
to Ms. Box, we are sorry that you and your family had to 
experience what you did.
    And now I recognize the gentleman, Mr. Grothman, for five 
minutes.
    Mr. Grothman. Correct. A couple of quick questions for Dr. 
McNicholas. If someone came to you who is eight months pregnant 
with a healthy baby girl and said they wanted to have an 
abortion because they didn't want another girl, would you 
perform that abortion?
    Dr. McNicholas. So that sensationalized hypothetical isn't 
real and I have never had that happen before.
    Mr. Grothman. Well, you said you performed an abortion- you 
know, it is up to- I am just giving you an example. Well, let's 
say, okay, someone came in with an eight-month pregnancy and 
just wanted to have an abortion because they didn't feel they 
had time to care for a baby. Would you do the abortion then?
    Dr. McNicholas. So I first want to reject the notion that 
people make decisions about continuing their pregnancy out of 
convenience. I have never, in 10 years of taking care of 
pregnant people, had somebody request an abortion because it 
just wasn't convenient.
    Mr. Grothman. Okay. Do you report- people presumably come 
to Planned Parenthood for contraceptive care as well. If a 14-
year-old or 13-year-old came to you, would you give them the 
contraceptives?
    Dr. McNicholas. So we talk to all of our patients about the 
availability of all of their contraceptive methods.
    Mr. Grothman. Right--
    Dr. McNicholas. And particularly for young people we would 
have an in-depth discussion about--
    Mr. Grothman. Okay.
    Dr. McNicholas [continuing]. healthy behaviors, prevention 
of sexually transmitted infection, the importance of making 
informed decisions.
    Mr. Grothman. What I will say is, if a 13-year-old is 
sexually active, by definition that is a serious sexual 
assault. Do you make any efforts to report the person who is 
engaging in illegal activity with the young lady?
    Dr. McNicholas. So we at Planned Parenthood follow all the 
rules and laws, and so we would--if, by law, we were required 
to do it, we would do it.
    Mr. Grothman. Would make any efforts--
    Dr. McNicholas. If we are required to do it--
    Mr. Grothman [continuing]. any efforts to--
    Dr. McNicholas [continuing]. we would do it.
    Mr. Grothman. If you weren't required to do it, you 
wouldn't do it.
    Dr. McNicholas. You know, talking to young people about 
their sexual health can be a--
    Mr. Grothman. I will ask you another question. If someone 
comes in, is a 13-year-old girl, and wants to have an abortion, 
would you- which means, inevitably, or almost certainly 
something illegal was done, a serious sexual assault--would you 
probe into that anymore, or would you just do the abortion and 
not worry?
    Dr. McNicholas. So one of the most impactful times I have 
with patients is discussing particularly around issues of 
sexual assault. We provide our patients with the space to 
discuss what happened, if they want to discuss that, 
recognizing that it can be incredibly traumatic to discuss that 
experience in any single health situation. And so I would 
respect whatever is comfortable for her.
    Mr. Grothman. I will give you another question. If someone 
comes in and doesn't have the money for an abortion, says they 
are broke but ``I want an abortion,'' maybe seven or eight 
weeks pregnant, do you perform the abortion, or do you say that 
``we don't do the abortion''?
    Dr. McNicholas. We make every effort to take care of 
patients' every needs, regardless of their financial 
insecurities.
    Mr. Grothman. So as I understand it, talking to people in 
your industry, you will find a way to do an abortion, whether 
the government is paying for it or nobody is paying for it. 
Somehow you will find the money to do that abortion. Correct?
    Dr. McNicholas. So to set the record straight, the 
government does not pay for abortions. People are navigating 
the complexity of paying for basic health care because the 
government has abdicated its responsibility to pay for that.
    Mr. Grothman. So you don't turn people down. That is what I 
want to know.
    Dr. McNicholas. We do not turn people away.
    Mr. Grothman. Correct.
    I have toured some abortion clinics, and one thing that 
struck me about the abortion clinics, at least- and this was 
like 20 years now since I toured them--is they never used the 
word ``abortion'' and they never used the word ``fetus.'' They 
always used the words ``procedure'' and ``tissue.'' Do you 
still follow that policy, in which we try to avoid using the 
words ``fetus'' and ``abortion'' and use the words 
``procedure'' and ``tissue''?
    Dr. McNicholas. Twenty years is a long time. I invite you 
back to our clinic to see what happens there. And I absolutely 
use the words ``fetus'' and ``abortion.'' And, actually, I take 
the direction from my patients, who absolutely understand the 
potential life that is in their uterus. Most patients who have 
abortions are parents. They are well- aware of the fact that 
what would happen if they didn't have an abortion is that they 
would have a baby.
    Mr. Grothman. We- I am running out of time here. We did 
pass a 24-hour waiting period bill in Wisconsin. Do you have a 
similar bill in Missouri?
    Dr. McNicholas. We have one of the most restrictive waiting 
period bans in Missouri.
    Mr. Grothman. Okay.
    Dr. McNicholas. It is 72 hours, and requires the same 
physician.
    Mr. Grothman. Okay. The question I have for you, it came 
out as part of a lawsuit, in Madison, Wisconsin. Because of the 
waiting period bill, about 10 percent of the women who came in 
the first time around, I believe, and gave an amount of money, 
did not come back the second time, which would indicate they 
were very much on the fence, and given some more time to think 
about it they decided not to have the abortion.
    Percentage-wise, of all the women who come in to see you 
the first time, what percent don't come back the second time, 
in Missouri?
    Dr. McNicholas. I think you made an assumption about what 
that 10 percent means. My informed assessment of that would be 
that those 10 percent of women really struggled to figure out a 
way to get back, because they didn't have the financial means, 
the secure transportation needs, the ability to navigate 
additional time off of work or find somebody to watch their 
children while they were trying to access that care.
    Mr. Grothman. So you are not going to answer my question.
    Mr. Clay. The gentleman's time has expired.
    Mr. Grothman. Thank you for being so--
    Mr. Clay. I recognize the gentleman from California, Mr. 
Khanna, for five minutes.
    Mr. Khanna. Thank you, Representative Clay. Thank you for 
your leadership in convening this hearing.
    I would like to discuss state and Federal restrictions to 
abortion access and the disproportionate impact that they have 
on LGBTQ patients.
    Dr. McNicholas, a few questions for you. First, could you 
briefly describe the need for abortion care among the LGBTQ+ 
community?
    Dr. McNicholas. Absolutely. Thank you for your question. I 
think the first, most basic thing that most people forget is 
that your sexual orientation does not define who you are having 
sex with, and so people in all of those communities may 
experience pregnancy.
    Similarly- and I have had the honor of taking care of many 
trans and non-binary folks in my career- so long as you have a 
uterus you have the capability of getting pregnant, and if you 
think that accessing abortion care is stigmatizing when you 
present as a woman, imagine what it is when you are presenting 
as your authentic male self.
    Mr. Khanna. I appreciate you mentioning that there are 
transgender men and non-binary individuals who rely on 
reproductive health services and abortion services.
    In 2015, when the National Center for Trans Equality 
surveyed transgender Americans, 23 percent of respondents did 
not see a doctor when they needed to because of, quote, ``fear 
of being mistreated as a transgender person.''
    As a doctor, can you describe some of the challenges 
gender-diverse patients face in accessing health care, and 
abortion care, specifically?
    Dr. McNicholas. So in my practice I have, again, had the 
great honor of taking care of many specifically trans men 
seeking hysterectomies in their transformation process, and one 
of the things I hear from them, unequivocally, each one of 
them, is that there have been tremendous delays in accessing 
very basic care, one, because they are afraid that they won't 
be treated with dignity and respect, and the second is because 
that is their lived experience. They have been turned down by 
many patients- excuse me, physicians- and have been 
intentionally degraded with, for example, use of intentional 
misgendering of the patient in front of them.
    Mr. Khanna. And can you also describe some of the specific 
challenges that gay, lesbian, and bisexual patients may face in 
abortion care, specifically?
    Dr. McNicholas. Sure. So I think it is important to 
remember that gay and lesbian folks also want to build 
families. They are parents. I, myself, have a wife and a child, 
so I fit into that group as well. It is important that they are 
able to access that care in a place where they feel respected 
and dignified, and Planned Parenthood is happy to be one of 
those places.
    Mr. Khanna. Thank you so much for speaking to those issues.
    Turning to you, Ms. Howell, transgender people are four 
times more likely than the general population to live below the 
poverty line, and close to one in four lesbian bisexual women 
in the United States live in poverty. Yet current laws prevent 
Federal Medicaid dollars from being used to cover abortion 
services.
    How do these funding restrictions overlap with identity to 
make abortion even less accessible for the LGBTQ communities?
    Ms. Howell. The discrimination that people go toward, 
because they are either trans or gender nonbinary or LGBTQ, it 
really does hit them harder because, as was already mentioned, 
they are afraid to go and get services, and when they go to get 
services they find that some of the current regulations allow 
people to discriminate against them, and that they then find 
that they don't have any access to getting good reproductive 
health services, much less regular health care services.
    Our organization does believe that all people have the 
right to get reproductive health services, regardless of 
whether they identify as LGBTQ, whether they are trans, whether 
they are low income. All of these factors should be taken into 
account to allow them to get the kind of services that they 
deserve. And so laws or regulations that allow--that have been 
done by this government that allow other people to discriminate 
against them puts them at higher risk, and those are the kind 
of laws and regulations that we fight against.
    Mr. Khanna. Well, thank you, Ms. Howell. Thank you, Dr. 
McNicholas, for your advocacy for some of the most vulnerable 
populations, and I believe we need to really consider their 
access to health care as we craft these laws.
    I yield back my time.
    Chairwoman Maloney.[Presiding.] Thank you. Representative 
Cloud.
    Mr. Cloud. Thank you all for being here. I appreciate you 
all coming to take part in a discussion that is, no doubt, very 
emotionally charged with very deeply held beliefs of conscious 
on both sides of the issue.
    For me, the most difficult decisions we have to make as 
lawmakers are those in which individual rights are in conflict 
with each other. And so for me, on this issue, where I come 
down, is to the whole life living in pursuit of happiness, 
where which rights supersede. And I do believe that while 
having compassion for anyone who has to go through a difficult 
situation that the right to life is more- supersedes the right 
to liberty and the pursuit of happiness.
    So in that context I approach this conversation.
    Dr. McNicholas, could you describe what happens in the 
process of an abortion, to the baby?
    Dr. McNicholas. So I appreciate your question and I want to 
first note that abortion was around before there was any 
concept of life, liberty--
    Mr. Cloud. Answer the question.
    Dr. McNicholas [continuing]. and the pursuit of happiness.
    Mr. Cloud. I have only five minutes.
    Dr. McNicholas. The abortion procedure really depends on 
the clinical situation. When I speak to patients about their 
options for terminating a pregnancy I start with where are we 
in pregnancy.
    Mr. Cloud. I only have five minutes. Could you speak to the 
process please?
    Dr. McNicholas. So I realize it is difficult, but in 
medicine things aren't short. There are 100 shades of gray. So 
it is impossible for me to take what is often a 50-minute 
conversation with a patient and answer it in 30 seconds for 
you.
    As I approach patients, I talk to them about what their 
options are for pregnancy termination, and that really depends 
on a variety of things, including what stage of pregnancy they 
are in, what are their other medical comorbidities or health 
problems that they have, whether any particular instances in 
previous pregnancies, for example--
    Mr. Cloud. Okay. I am going to have to--
    Ms. Stuckey, could you describe what happens in the process 
of an abortion?
    Ms. Stuckey. Well, apparently I am the only one willing to 
talk about specifics, and this is free online. Anyone can go 
look. Even Planned Parenthood's website describes pretty 
clearly what, for example, a D&C abortion is, which is taking 
out of the amniotic fluid, drying that up from the uterus, 
which is what, of course, the fetus, the baby, needs to 
survive, and then dismembering the baby, limb by limb, with 
forceps. And Ms. Lawrence spoke to that being deceitful or 
hyperbolic. It is not at all. Please, go look online and you 
can see what an abortion actually is.
    But again we see that it is not me that is speaking in 
generalities. It is the pro-abortion side that is speaking in 
generalities, because they know the grotesque nature of what an 
abortion procedure is. You don't have to be an abortion 
provider to know what an abortion is. That is exactly why I am 
here, to talk about the absolute brutality of the killing of 
life inside the womb.
    And I also want to address Ms. Box, who I have the utmost 
compassion for. One, I actually did not say the term 
``murderers,'' to my recollection, and I don't think me being 
passionate about this subject we do disagree on means that I 
disrespect you. I think that we can agree, or disagree, even 
passionately, without taking that as a personal slight, and I 
certainly didn't mean it that way. I just care about life 
inside the womb and protecting babies unborn.
    Mr. Cloud. Okay. I have very little time left now, but, Ms. 
Graves, you mentioned that nothing has changed since Roe v. 
Wade except for the makeup of the Supreme Court. The reality 
is--
    Ms. Goss Graves. I actually said- I just want to correct 
you, because I was talking about the whole women's health 
decision, which was three years ago--
    Mr. Cloud. Okay.
    Ms. Goss Graves.--and the case that is going to be before 
the court this term, the June Medical Services--
    Mr. Cloud. But a lot has changed. We- science has developed 
a whole lot. Back in the 1970's, it was rare for an ultrasound- 
for a woman to have an ultrasound. Isn't that correct? Now we 
know a whole lot. We know that a baby can be viable at 20 
weeks. We know that a baby feels pain.
    I ask unanimous consent to submit this peer-reviewed 
scientific article on fetal pain that a baby feels during 
abortion.
    There is a lot that has happened since this is- and 
certainly I think the scientific advances merit us relooking at 
this.
    Ms. Goss Graves. The Supreme Court did, three years ago, in 
the Whole Women's Health decision, it considered--
    Mr. Cloud. Dr. McNicholas, you mentioned a number of health 
inspections at your abortion clinic when you just took over. 
Were you aware of the history of health violations at your 
clinic before you took over?
    Dr. McNicholas. So our clinic has been subject to repeated 
inspections every year, which we have passed, with a single 
inspection every single year, up until this year when clearly 
it became- it was no longer about ensuring the safety of 
patients and it became about a quest to end abortion access.
    Mr. Cloud. Okay. Well, I ask unanimous consent to submit to 
the record. This is only seven states, the violations at 
abortion clinics from a--
    Chairwoman Maloney. No objection. We accept this entry. 
Thank you.
    Chairwoman Maloney. And your time has expired.
    Mr. Cloud. Unfortunately, my time is up.
    Chairwoman Maloney. Okay. I now recognize Congresswoman 
Pressley, for her questioning. She has been a tireless advocate 
for these issues on this committee, so thank you for your 
leadership.
    Ms. Pressley. Thank you, Acting Chair Maloney, for holding 
the line on this full committee hearing since the transition of 
Chairman Cummings. Thank you, Ms. Box, for modeling that which 
he spoke of often, which is turning your pain into purpose. We 
thank all of you for being here.
    Elijah Cummings often reminded us that we are to be in 
efficient and effective pursuit of the truth, and so we are 
still trying to arrive at that, it seems, today.
    This conversation cannot be more timely, as we bear witness 
to and experience this Administration's calculated and systemic 
attacks on our constitutional rights and freedoms. The right to 
determine our own economic future and the audacity to determine 
our own fate, and the freedom to determine when, if at all, to 
have a child.
    Even in states like the Commonwealth of Massachusetts, 
which I represent, individuals, particularly low-income and 
young people, LGBTQ and black and brown folks, continue to face 
barriers in accessing comprehensive reproductive health care. 
And let me be clear, health care is abortion care.
    But in these times, we have seen many states emboldened by 
this Administration pass additional restrictions that further 
hinder individuals' access to abortion, endangering lives and 
criminalizing individuals for decisions that should be kept 
between themselves and their doctor.
    It is important to discuss these draconian state 
restrictions, but as chair of the Abortion Rights and Access 
Task Force of this first-ever pro-choice majority in this 
history of Congress, I would be remiss if I didn't also shed 
light on the impact that Federal coverage bans are posing on 
our most vulnerable communities.
    Current law restricts Medicaid funds from covering abortion 
care for women in communities across the United States. To be 
clear, the Hyde Amendment functioned as the original abortion 
ban for low-income individuals.
    According to the Guttmacher Institute, restrictions on 
Medicaid coverage for abortion services force one in four low-
income women to carry unwanted pregnancies to term.
    Ms. Goss Graves, how do coverage bans like the Hyde 
Amendment force low-income individuals further into poverty?
    Ms. Goss Graves. So just at, for some women, is the hardest 
time in their life, you know, around being pregnant, they are 
now in a situation where they, because they are on Medicaid or 
because they are on a Federal health plan or other Federal 
restrictions, they no longer have, or are in a situation where 
their health care can be covered by insurance, like the rest of 
their health care. So all of a sudden you are having to scrap 
together money, on top of a range of other barriers. Those 
barriers may look like having to travel long distances. Those 
barriers may look like having to pay for child care because of 
multi-day waiting periods. So it is not only the restrictions 
on coverage. You also have these other costs.
    And for the right to abortion, which has been legal for 50 
years almost, and reaffirmed again and again and again by the 
Supreme Court, most recently just three years ago, that right 
is not just for those who are affluent. That right is not just 
for those who happen to live in a state where the state is 
trying to make up for the very serious gaps in Federal 
coverage. That right is a fundamental right. It is a right that 
is tied to your ability to have dignity in this country, it is 
a right that is tied to your ability to have freedom in this 
country, and it is fundamental to your economic security.
    Ms. Pressley. Thank you. I would be remiss if I did not 
acknowledge, sitting next to me, a champion in the efforts for 
decades now to repeal Hyde. I want to acknowledge my other 
sisters in service from our Pro-Choice Caucus were waived on 
today, Representatives Chu and Schakowsky, respectfully. Thank 
you for being here.
    Each year, 700 women in the U.S. are likely to die during 
childbirth. These numbers are even worse for black and Native 
American women. Ms. Howell, could you speak to your report 
recently issued connecting the impacts of abortion bans on the 
maternal health crisis?
    And I would be remiss- I just wanted to acknowledge, since 
there was this conversation about compassion for the innocence- 
earlier today I rolled out the People's Justice Guarantee, 
which calls for the abolishing of the death penalty, and, in 
fact, 1 in 25 are wrongfully convicted and innocent. So I look 
forward to my colleagues on the other side of the aisle signing 
on to my legislation.
    Ms. Howell?
    Ms. Howell. The report that you refer to looks at the 
correlation between maternal mortality and states that have 
placed these bans against abortion. And what we know is that 
trying to- if you decide that you need to terminate a pregnancy 
and you are denied that care, it puts additional stress on you.
    We also know that women who are denied abortion care tend 
to delay prenatal care. So, again, there is an additional 
stress as well.
    And I might add, I want to give you some of the states that 
have some of the worst abortion bans and also some of the worst 
maternal mortality outcomes. Alabama, Georgia, Ohio, Missouri, 
unfortunately, and a lot of the Southern states- South 
Carolina, Texas. Those are the states that primarily have these 
outrageous abortion bans that prevent people from actually 
accessing abortion care, but they also have--
    Chairwoman Maloney. The gentlelady's time has expired.
    Ms. Howell [continuing]. the highest mortality--
    Chairwoman Maloney. Could you please wind down?
    Ms. Howell. They also have some of the highest mortality 
rates for maternal mortality. So we have to look at both of 
those things together in terms of what it means to access good 
reproductive healthcare for people.
    Ms. Pressley. Thank you, Ms. Howell.
    Ms. Howell. Thank you.
    Ms. Pressley. Thank you, Madam Chair.
    Chairwoman Maloney. Thank you. The chair recognizes 
Representative Miller.
    Mrs. Miller. Thank you, Madam Chairman and Ranking Member 
Green, and thank you all for being here today.
    As a mother, I have had the privilege to feel life quicken 
in my womb. As a grandmother, I know the joy of grandchildren. 
I have gotten to experience endless joy having grandchildren 
because it is just unconditional love.
    I have had family members and friends who have yearned to 
be parents but were unable to have children of their own. I 
have had friends and family who have been adopted, and they are 
very grateful. I have friends and family who have adopted 
children, and they are very grateful. They have brought such 
blessings to their family.
    However, I have become increasingly concerned as of late 
about the actions taken by my colleagues across the aisle. 
Washington Democrats refuse to protect babies even after they 
are born alive after an abortion attempt, and it is so 
heartbreaking. Our most vulnerable and youngest citizens 
deserve our utmost protection.
    Ms. Stuckey, speaking of medical innovation, I think we can 
all agree that women having access to all healthcare is 
important. That being said, not every Planned Parenthood 
provides comprehensive women's healthcare. Can you elaborate on 
the positive steps that the Trump administration has done to 
not only protect life, but to ensure that women have better 
access to healthcare through federally Qualified Health 
Centers?
    Ms. Stuckey. Yes, thank you for that question.
    First, I do want to address an issue that I think that we 
can all say- all agree on, that the maternal mortality rate in 
this country, in a developed country, is way too high. And it 
is, I think the number is 3.3 times higher for African-American 
women than it is for white women, and I fully believe that we 
need to address that. And I would encourage the Trump 
administration to address that.
    I don't understand why the exclusive solution that we 
discuss when we talk about the maternal mortality rate is 
abortion. Why is that the only solution that we discuss? Can we 
not come together and talk about how can we best care for a 
woman and her child? Why do we have to sacrifice the child for 
the health of the mother when it is not medically necessary?
    President Trump has been the most pro-life, most- if you 
want to call it anti-abortion, I am fine with that, too- anti-
abortion administration since Ronald Reagan, maybe even more so 
than Ronald Reagan, with the Mexico City policy. And of course, 
we know enacting the final rule for Title X that says you have 
to physically and finally separate your abortion services from 
the rest of your contraceptive care in order to receive Title X 
funding.
    I heard earlier a comment about this gag rule. Well, it is 
actually not a gag rule that the Trump administration enacted. 
It is you cannot encourage someone to get an abortion, but you 
can counsel them neutrally. So that is not actually a gag rule. 
It is not a limit on free speech.
    President Trump has ensured that these policies can go 
forth and, of course, given states the freedom to protect life 
inside the womb. And for that, I am very thankful.
    Mrs. Miller. You might be familiar with efforts by House 
Republicans to protect babies who are born alive after an 
abortion attempt. Many argue that the Born Alive Act is 
unnecessary because doing so violates existing criminal law.
    Do you believe Federal law should be clarified to ensure 
babies born alive after a failed abortion should receive 
critical medical care?
    Ms. Stuckey. Yes. It needs to be clarified. So this new law 
the Democrats have tried so hard to blockade simply 
criminalizes the neglect of an abortion provider to attend to 
the medical needs of a child who survives an abortion, further 
recognizes this child's personhood, and says this is the 
medical treatment that is required for a child outside the 
womb. We are not even talking inside the womb anymore.
    And unfortunately, Democrats cannot even get onboard with 
that. There are not any undue burdens, undue regulations. This 
is not preventing abortion providers from even giving 
abortions. It is simply saying if a child survives an abortion, 
attend to that child.
    It should be really simple. If you really are pro-choice 
and you are really not pro-abortion, as I have heard many times 
during this hearing, that should be a no-brainer.
    Mrs. Miller. I understand a baby can survive as early as 23 
weeks old. Can you elaborate on how age of viability has 
changed in the recent years, and what has made that possible?
    Ms. Stuckey. Well, as technology and medicine advances, 
thankfully, hospitals are able to give incredible perinatal 
care, so that a child as young as 21 weeks actually has been 
known to survive outside of the womb. I mean, that is pretty 
early in the second trimester. That is only halfway through the 
pregnancy.
    At 24 weeks, that is generally accepted as the age of 
viability. What that means is that that child has a really good 
chance, if she were to be born prematurely, to live outside the 
womb, to grow. She would spend some time in NICU, but she would 
grow up, you know, if everything went well and she was healthy, 
into a normal functioning child. You wouldn't even be able to 
look back and tell that the child was premature.
    So when we are talking about these children as if they are 
not children, as if they are not babies, we are talking about 
mere location. I mean, on the one hand, we talk about them as 
if they are just these parasites to be discarded as these 
remains of pregnancy, I think is what I heard the doctor say 
earlier.
    And then a second later, when they are outside of the womb, 
they are all of a sudden babies. Although, unfortunately, as 
you pointed out and other congresspeople have pointed out, even 
then, even then they don't seem to be respected by the pro-
abortion side.
    Mrs. Miller. Thank you. I yield back.
    Chairwoman Maloney. Thank you.
    I understand that the witness, Ms. Stuckey, has a flight 
she has to catch. So I will dismiss her, noting that there may 
be other additional questions that I request that she answer 
them in writing.
    And thank you for your testimony, and I hope you don't miss 
your flight.
    Ms. Stuckey. Thank you.
    Chairwoman Maloney. So the next speaker will be Debbie 
Wasserman Schultz from Florida. Congresswoman Schultz?
    Ms. Wasserman Schultz. Thank you, Madam Chair.
    Madam Chair, I have a question of you, and in fairness, I 
would like Ms. Stuckey to hear my question because I wouldn't 
want there to be any assumption that I was saying it as she was 
no longer in the room.
    I just want to clarify that Ms. Stuckey is here expressing 
her own opinion exclusively and has no scientific or particular 
expertise in this subject matter whatsoever. Is that accurate?
    No, I want to ask you, from what your knowledge of her 
experience is in the description of the witness's experience.
    Chairwoman Maloney. That is my understanding.
    Ms. Wasserman Schultz. Thank you. I just wanted to clarify 
that particular fact.
    Chairwoman Maloney. But I think the witness should answer, 
in all fairness, as she is here.
    Ms. Stuckey. I think it says something that when I, the one 
without the scientific or medical background, am the only one 
to give you specifics on what is--
    Ms. Wasserman Schultz. Reclaiming my- reclaiming my time. 
My question--
    Ms. Stuckey [continuing]. what an abortion procedure 
actually is. Ask the doctor for yourself.
    Ms. Wasserman Schultz. Reclaiming my time, Ms. Stuckey, my 
question was not of you, and you have essentially acknowledged 
that you are here expressing your own opinion, which we 
appreciate.
    So the other thing I wanted to point out was that no one 
here today has said that abortion is the only solution to 
address the maternal mortality rate. How about access to- 
better access to prenatal care? How about the passage of the 
Affordable Care Act and making sure that it remains the law of 
the land so that women are no longer considered preexisting 
conditions just because of our existence as women and the 
potential for us to be dropped or denied coverage because of 
our propensity to get pregnant and have babies, which happened 
all the time before the Affordable Care Act was the law of the 
land.
    I could go on with many other provisions that we advocate 
to make sure that we can reduce the maternal mortality rate. 
Certainly, abortion is not the only thing we suggest and, in 
fact, is not a solution that we ever suggest to reduce the 
maternal mortality rate. It is a ridiculous suggestion.
    What isn't a ridiculous suggestion is that the decision to 
become a parent is one of the most important and most personal 
life decisions that we make. Watching the rapid expansion of 
state laws that limit a woman's autonomy to make this personal 
choice for herself is deeply troubling.
    This fight for reproductive freedom is one that we are all 
too familiar with in Florida. I have seen Republicans in my 
home state in the legislature introduce bills that ban abortion 
after six weeks, ban abortions that are based on certain 
medical diagnoses, and right now are fast-tracking a proposed 
Draconian parental consent law.
    We need to be unequivocal about calling these laws out for 
what they are, sinister attempts to interfere with a woman's 
right to make her own personal health choices and decisions and 
obvious steps in a larger political plan to ban all abortions. 
As we have heard, Missouri has enacted so many restrictions on 
providing abortion care that only one clinic is left standing.
    Because my time is limited, I want to ask Dr. McNicholas, 
the excuse that a patient can just drive to another state to 
receive medical care, is that an acceptable rationale for any 
other type of medical service? And is it accurate to say that 
requiring medically unnecessary patient delays, whether that is 
to gather travel funds or make lodging and caregiving 
arrangements, would lead to women having later abortions, which 
were more expensive and can pose a higher health risk?
    Dr. McNicholas. Thank you for the question and 
acknowledging the sort of many intersecting realities that 
people are navigating when they are trying to access basic 
care. And in Missouri, for many of them, that means driving 
hundreds of miles multiple times.
    I am reminded, actually, of a patient I took care of 
recently in the second trimester, who actually was able to get 
to the clinic the first time very early at six weeks of 
pregnancy. She went home and scheduled her clinic procedural 
date for about a week and a half later but, unfortunately, was 
in a car accident on the way to that appointment.
    Because Missouri's law not only requires a waiting period, 
but requires it to be with the same physician who will 
ultimately perform your procedure, she was then- her two-visit 
abortion became a four-visit appointment visit, and she was 
pushed from seven weeks to 15 weeks. This is exactly what 
happens when there is no context and no medical or scientific 
grounding in abortion restrictions. Patients are pushed to 
later and later in pregnancy, which is quite ironic for a 
cohort of folks who want to limit abortion later in pregnancy.
    Ms. Wasserman Schultz. Thank you.
    Ms. Box, I want to end with you, and I am so sorry for your 
loss. But I know you are overjoyed in your daughter that you 
brought with you.
    You received test results that revealed your daughter Libby 
had a chromosomal anomaly when you were around 13 weeks 
pregnant. But if H.B. 126, the Missouri law that would ban 
abortion after about eight weeks, had been the law in the state 
of Missouri at that time, would you have considered leaving the 
state to have an abortion? How difficult would have it have 
been for you and your family if you had needed to travel out of 
state to obtain your abortion care?
    Ms. Box. So the answer is, yes, I would have looked at how 
I could have protected my daughter, regardless of what 
regulations the state tried to interfere with. The truth is, 
even though abortion, the ban had not come into effect yet, the 
eight-week ban, we did look at leaving Missouri and going to 
Representative Kelly's state of Illinois because the 
restrictions there are fewer. There is an opportunity for--
    Chairwoman Maloney. The gentlewoman's time has expired. If 
you could please wrap up real quick?
    Ms. Box. Yes. So, yes, we would have done whatever we could 
to protect our daughter, regardless of governmental intrusion.
    Ms. Wasserman Schultz. Thank you for sharing your personal 
story, and I yield back the balance of my time.
    Chairwoman Maloney. I now recognize Representative Green.
    Mr. Green. Thank you, Madam Chairwoman.
    My first question is for Dr. McNicholas. Am I pronouncing 
that correctly? Yes. If the DNA from a fetus and a mother were 
found at, say, a crime scene, say it is two blood samples. We 
take fetal blood. We take mother's blood. We put them at the 
crime scene. The investigators know nothing. They find two 
samples. Would the investigators see these as two separate 
people?
    Dr. McNicholas. I have no idea.
    Mr. Green. Of course, they would. The answer is yes. You 
know, as a physician, it is two different DNAs, and they would 
see two DNAs, and so they would say it is two people.
    My next question, question for you as well. Recently, in 
California, a mother was charged for killing her unborn baby by 
excessive methamphetamine usage. If the mother had just gotten 
an abortion and killed the baby that way, she wouldn't have 
been charged. Do you see the hypocrisy in this?
    Dr. McNicholas. I think it is tragic that we are 
criminalizing people who need basic healthcare and treatment 
for their drug addiction problem. That is what I think is a 
problem in this country.
    Mr. Green. Absolutely. Someone who uses methamphetamine 
should get help. There is no doubt about it. And she was 
charged with a crime for the death that she caused of her baby 
with methamphetamine use. The child was stillborn.
    I just- I find that hypocritical that if she had just gone 
a week prior to Planned Parenthood and gotten an abortion, she 
wouldn't be charged.
    You know, I am going to transition a little bit here. I 
want people to make their own choices. I am for freedom. But 
when one person's freedom impinges on the freedom of another, 
and for example, if someone in this room yelled ``fire,'' that 
would be against the law because, potentially, a stampede could 
occur, and people would be hurt.
    Abortion is a decision where one person makes it, and it 
leads to the death of another person. So that is something to 
take into consideration.
    My next question I was going to actually ask of Ms. 
Stuckey, but she is gone. I will just read the question and let 
the audience and others consider it.
    A few years ago, a freezer unit protecting previously 
fertilized human eggs, meaning a sperm and ovum where they had 
combined to form a fertilized egg, was broken. And thousands of 
these fertilized eggs were lost. I just want to ask people in 
the room whether or not they would agree with the headline in 
the newspaper the following day that said it was a human 
tragedy that these lives were lost. Just consider that.
    My next question again is back to you, Dr. McNicholas. In 
regards to ABO and Rh incompatibility, why do I, as an ER 
physician, have to treat the mothers with RhoGAM to prevent her 
antibodies from attacking the blood supply of the baby?
    Dr. McNicholas. Oh, so two minutes for this?
    Mr. Green. No, you got 30 seconds.
    Dr. McNicholas. Oh.
    Mr. Green. Or I can do it because I do it all- I treat 
these patients all the time. Go ahead.
    Dr. McNicholas. Sure. So in the instance in which the fetus 
has a different type than mom, there are occasions where mom 
can create her own defense mechanism to that situation, which 
would in a subsequent pregnancy attack a subsequent pregnancy 
and have some serious conditions for the fetus.
    Mr. Green. That was pretty good, and I mean, you did it in 
about 30 seconds. But she is absolutely correct. Basically, the 
mother's immune system sees that second child as foreign and 
attacks it because it has got a different blood type than the 
mother.
    Let us see, I also want to share a few quick observations, 
in the little bit of time that I have left, as an ER physician. 
I know that there are a lot of statements about the safety of 
abortion. I just want to tell you that I have treated many, 
many patients in the emergency department where the abortion 
hasn't gone as intended, where products of conception, the 
medical term- or baby parts- are left inside the mother, and 
sepsis results.
    Those patients come to us, and we take care of them in the 
emergency department. We save their life from that infection.
    I also want to say that I have taken care of many, over the 
years as an emergency medicine physician, patients who have 
come in bleeding from an abortion. And the unfortunate thing is 
that the obstetrician who has to take care of that patient 
didn't do the abortion. So he doesn't know the patient's 
history, and they are rushing them into surgery to stop the 
bleeding and save the patient's life. That does happen.
    And it happens more frequently than many people would want 
you to know, but it is a reality. And I just want to say that 
is why I support abortion providers having credentials at a 
hospital where they can treat the complications of the surgical 
procedure of an abortion that they- that results when they do 
that.
    Chairwoman Maloney. The gentleman's time has expired.
    Mr. Green. Oh, am I out? Okay, thank you, Madam Chairwoman. 
Thank you.
    Chairwoman Maloney. Thank you. I would now like to 
recognize Congressman Raskin.
    Mr. Raskin. Madam Chair, thank you. And thank you for 
calling this important hearing.
    Big Brother seems to have come to Missouri, the Leviathan 
state has arrived in Missouri, and all of our colleagues who 
like to strike a libertarian note when it comes to people 
possessing AR- 15s and military-style assault weapons, the 
kinds that are wreaking havoc across the land, suddenly become 
the champions of Leviathan, Big Brother, Gilead, and the all-
powerful state. Politicians making healthcare choices for our 
people.
    Ms. Goss Graves, let me start with you. You are the 
president of the National Women's Law Center. Presumably, you 
know something about the history of sterilization in our 
country, where certainly tens of thousands of women at least 
were sterilized. If Government has the power to prevent a woman 
from having an abortion against her will, won't Government also 
have the power to sterilize women against their will, which was 
so much a part of our history?
    Ms. Goss Graves. You know, I think it is important to put 
the right to abortion, which is so core and fundamental, in the 
context of a range of rights. The right to abortion is in the 
context of the right to make reproductive healthcare decisions 
broadly, including contraception, including around 
sterilization and not having forced sterilization. But it is 
also among the set of rights around the right to be intimate, 
the right to marry.
    All of those things follow a long line of decisions that 
emanate from the Fourteenth Amendment's guarantee around 
liberty and around your ability to sort of live with dignity.
    Mr. Raskin. Thank you.
    Dr. McNicholas, officials in Missouri, including Dr. 
Randall Williams, the Director of the Department of Health and 
Senior Services, and Governor Parsons, have asserted that the 
restrictions adopted in Missouri are necessary for the health 
and safety of people seeking abortions. In your opinion, is the 
requirement that a physician have admitting privileges at a 
local hospital necessary for the health or safety of a woman 
seeking an abortion?
    Dr. McNicholas. So the short answer is no, and the longer 
answer is it is not my opinion. It is what science and fact and 
ACOG and the most recent publication out of the National 
Academies of Science has told us.
    Mr. Raskin. Well, what about this 72-hour waiting period 
between a woman seeking an abortion and being able to get one? 
And then also I understand they adopted a provision for two 
pelvic exams during that time. Is that necessary for the health 
and safety of women in Missouri?
    Dr. McNicholas. None of those are required to maintain 
health and safety.
    Mr. Raskin. But how do you know that?
    Dr. McNicholas. Science. There is plenty of published 
literature supported by the American College of OB/GYN, again 
supported by the National Academies publication that has 
demonstration that not only are they not medically relevant or 
necessary, but they actually cause harm.
    Mr. Raskin. Well, what about from the standpoint of the 
patient? Ms. Box, let me come to you. Did you feel that any of 
the procedural hurdles and hoops that were set up in Missouri 
and you were forced to jump through were necessary for your 
health and safety?
    Ms. Box. No. I found them insulting. They presumed that my 
husband and I didn't have the ability to make a decision for 
ourselves. The waiting period that Dr. McNicholas was talking 
about and the mandatory same physician rule meant that my 
abortion, which happened at around 15 weeks, had I not been 
able to do the available date that the physician had, I 
actually would have been outside of when is the legal timeframe 
in Missouri.
    And I was well short of it. I would have had to reconsent, 
been given another booklet of medically inaccurate information, 
which my husband and I refer to as the ``book of shame,'' and 
that- all of that presumes that- and I think what I find most 
insulting as a patient is that I didn't have the ability to 
think for myself, that I needed my state government to put that 
time in for me.
    Mr. Raskin. I thank you for that really important insight. 
You talk about this ``book of shame.'' I think you started your 
testimony by saying that one quarter of American women will 
have an abortion over the course of their lifetime, most of 
them also mothers, as you are. You have how many kids? Two 
kids?
    Ms. Box. I have three living children.
    Mr. Raskin. You have three living children. Okay. Well, 
they want to throw the ``book of shame'' at tens of millions of 
American women. How does that feel to you as a citizen in 
Missouri? That you get hit by the ``book of shame''?
    Ms. Box. I mean, it is devastating. I mean, in our 
particular case, we were in the middle of a very grief-stricken 
process, and we were in a crisis. And to have confusing and 
misleading information when you are trying to make a medical 
decision is horrifying that we would ever allow patients to get 
mischaracterization and misinformation and hope they can make 
the best decision for themselves.
    Mr. Raskin. Okay. And finally, I wanted to ask this 
question while all the witnesses were there. I was thinking we 
could make history by getting the pro-choice witnesses and the 
anti-choice witnesses to agree on a pro-life program, which is 
a universal criminal and mental background check on all gun 
purchases.
    At least for the witnesses who are still here, would you 
reach across the aisle to the pro-life witnesses to say you 
would stand for that?
    [Response.]
    Chairwoman Maloney. The gentleman's time has expired.
    Mr. Raskin. I would let the record reflect I think they all 
nodded their heads, Madam Chair.
    Chairwoman Maloney. Congressman Connolly?
    Mr. Connolly. Thank you, Madam Chairman. And thank you for 
holding this hearing.
    And thank you, Mr. Clay, for being our inspiration in 
highlighting what is happening in your state.
    I think we need to be honest here. Everything designed to 
make your very difficult decision, personal decision--not a 
state decision, Ms. Box--was designed to take away your choice. 
What Mr. Green described was insidious logic. Because there 
might have been complications from some abortions, all 
abortions should be eliminated.
    Even though the overwhelming majority of legal abortions, 
because of Roe v. Wade, they are done under medically 
supervised conditions and are safe and allow women and families 
to have choices. The changes in Title X are designed, again, to 
take away or limit choices. The attack on Planned Parenthood 
insidious, designed to take away choices and being willing to 
deny women healthcare as the price you have to pay for their 
ideological stance.
    And Ms. Stuckey's misguided moral absolutism for all the 
rest of us. And of course, the sacrifice of science, as you 
point out, Dr. McNicholas, that has to be in there, too, 
because science is an inconvenient source of information and 
truth, again denied you and your family, Ms. Box, at a critical 
moment in the decision you had to make. Go ahead.
    I thought you wanted to comment.
    All right. Dr. McNicholas, how many women patients does 
Planned Parenthood see every year?
    Dr. McNicholas. The Planned Parenthood of the St. Louis 
region, so--
    Mr. Connolly. No, no. Nationwide?
    Dr. McNicholas. Oh, I don't know.
    Mr. Connolly. All right. St. Louis?
    Dr. McNicholas. Our Missouri- our Missouri affiliates see 
more than about 50,000 women a year.
    Mr. Connolly. How many?
    Dr. McNicholas. Fifty thousand.
    Mr. Connolly. Would you guess that is a lot more than Dr. 
Green sees in a year?
    Dr. McNicholas. It is. And I would actually like to 
highlight, to Dr. Green's point about safety, that I have yet 
to see an oral surgeon be brought in front of Congress to talk 
about the risks of wisdom teeth, but having an abortion is 
safer than having your wisdom teeth removed.
    So I think mischaracterizing abortion as anything other 
than safe is inappropriate. It is healthcare. So, yes, 
unfortunate outcomes will happen for some people, but by and 
large, it is safer than colonoscopy, wisdom teeth, and I will 
also mention it is far safer than carrying a pregnancy to term.
    Mr. Connolly. And it is safe because Roe v. Wade made one 
law for the whole United States, including Missouri. Is that 
correct?
    Dr. McNicholas. We have lots of examples internationally to 
show that legalization of abortion is one of the most important 
public health and lifesaving interventions for women.
    Mr. Connolly. And would it be fair to say that absent Roe 
v. Wade, it is not that abortion will disappear, it is that 
people will be forced once again to go into the shadows to 
secure those services, to make those decisions, or go to states 
that do protect it legally? Is that a fair statement?
    Dr. McNicholas. So as I mentioned before, abortion was 
around before the Constitution, and it will not go anywhere if 
we remove those barriers.
    Mr. Connolly. So our choices make it safe. Hopefully, it is 
rare because contraception is available. Family planning is 
available, but it has to be an option. As Ms. Box's personal 
experience tells us, it is a health decision, a hard one, a 
heartbreaking one for many people.
    But to deny them access to it because you have decided on 
the morality of it or you have made up science to justify your 
own personal belief is to impose your will on the majority of 
Americans, including women who are affected by this choice.
    Title X, Dr. McNicholas, Planned Parenthood decided to pull 
out of Title X, even though it does not provide funding for 
abortions. Is that correct?
    Dr. McNicholas. That is correct.
    Mr. Connolly. Why did Planned Parenthood decide to leave 
Title X?
    Dr. McNicholas. I think, as was previously mentioned by Ms. 
Goss Graves, there is a really fundamental issue for Planned 
Parenthood, which is that the new rule would force us to lie to 
patients and intentionally exclude information that could be 
important and lifesaving for them.
    Mr. Connolly. And real quickly, because Title X provides 
other healthcare for women, they are now going to be denied 
that coverage because of Planned Parenthood's being forced out 
of the program. Is that correct?
    Dr. McNicholas. We are going to try our very best to meet 
all of the needs of our patients, including those who were 
previously receiving Title X, but I think the point is well 
taken that with reduction of Planned Parenthood seeing Title X 
patients, there will be a tremendous gap in services for 
patients, particularly who are low-income or people of color.
    Mr. Connolly. My time has expired, but I thank you all for 
being here and for the courage of sharing, especially you, Ms. 
Box.
    Chairwoman Maloney. I would now like to recognize 
Congresswoman Tlaib.
    Ms. Tlaib. Sorry. I didn't know I was next.
    Thank you so much. It really is incredibly important that 
you all are here to talk about this particular issue. 
Especially as a woman serving in the U.S. Congress, I just want 
to personally thank you for defending my right to choose.
    One of the things I want to discuss is the impact of 
politically motivated restrictions of abortion that we have 
been talking about, access to maternal health. But even more, 
even around infant mortality.
    When I served six years in the Michigan state legislature, 
I was always taken aback by so much time and effort and debate 
and conversation around the right to choose versus infant 
mortality, you know, maternal health. All of those things that 
I think are interconnected with some of the, you know, 
reasoning behind folks that want to support life, right?
    And there is an issue that is particularly concerning to me 
is that parts of my home district have among the highest 
maternal mortality rates in the country. In 2014, a woman 
giving birth in Detroit was three times more likely to die in 
childbirth than the rest of the country. Infant mortality in 
Detroit is double the national rate in the country, and it just 
goes on and on.
    Dr. McNicholas, you know, Missouri was one of the highest 
rates--has the highest rates of maternal mortality in the 
country, and that continues to rise, especially among women of 
color. In fact, black women in Missouri are three times more 
likely to die from pregnancy complications than other women. Is 
that correct?
    Dr. McNicholas. That is correct.
    Ms. Tlaib. Which state official again is responsible for 
addressing maternal mortality in Missouri?
    Dr. McNicholas. That would be the Director of our 
Department of Public Health, Dr. Randall Williams.
    Ms. Tlaib. So Dr. Williams is, in fact, the same official 
that has spent state dollars on enforcing unnecessary pelvic 
exams on women and tracking their menstrual cycles of Planned 
Parenthood patients. Correct?
    Dr. McNicholas. Yes.
    Ms. Tlaib. How do you think that he should be spending 
time? I mean, what do you think he should be doing right now? 
And again, around the same ideals, right, that they are 
supporting this, they won't support the women that are having 
children.
    Dr. McNicholas. Yes, you raise a great point. Under Dr. 
Williams, Missouri went from 42nd in the country to 44th in the 
country in maternal mortality. And while he is spending his 
time visiting- his time and resources on visiting Planned 
Parenthood multiple times, he could be focusing on things like 
addressing maternal mortality, addressing the systemic and 
institutional racism that is engrained in that rate of three 
times higher for black women.
    He could be working on improving access, particularly for 
our rural women. You know, Missouri is one of the states who, 
because we haven't expanded Medicaid--hey, that is another 
thing he could do- we have rural hospitals closing at alarming 
rates. So if you want to continue your pregnancy, your chance 
of having a healthy pregnancy is sabotaged by the fact that 
there is no hospital that you can go to to get care during that 
pregnancy.
    There are a number of things that he could be doing to 
address maternal mortality.
    Ms. Tlaib. I know, and the hypocrisy is so unjust and 
absurd.
    Ms. Howell, your organization did a phenomenal study, 
finding that black women face greater barriers to access to 
reproductive healthcare, including abortion care. What are some 
of the factors that you think account for the discrepancy in 
health outcomes?
    Ms. Howell. Some of the factors are that black women 
disproportionately get their health insurance from Medicaid, 
which already then bans their access to abortion care and to 
get coverage. So what happens is that when they find they are 
pregnant and they decide they want to terminate a pregnancy, 
they have to go through a number of steps. They have got to 
figure out how to afford it, how they can take off work, how 
they can get childcare, how far they have to travel.
    One of the things that we did is we asked black women in a 
poll what are all the factors you take into account when you 
are deciding whether or not to have a child? And it wasn't just 
about having money. It was also about having a neighborhood 
where neighborhood services were happening. It was about being 
able to get quality food sources. It was about clean water. 
There were a number of factors.
    And if you are a woman of low income and you get your 
healthcare from Medicaid, you also have all these other factors 
that come into it. And that is why when we were talking about 
no one knowing all the reasons why someone might decide to 
terminate a pregnancy, our organization trusts black women to 
make those personal decisions that are best for themselves and 
their families. And the other side clearly does not trust us to 
make those decisions.
    Ms. Tlaib. No, they want to control us.
    Thank you so much, and I yield the rest of my time.
    Chairwoman Maloney. I thank my friend from Michigan for her 
powerful voice for her state, and I now call upon one of 
Congress' most outstanding leaders, my good friend and 
colleague Barbara Lee, for her- and I want to publicly thank 
her for her tireless and for being such a powerful advocate for 
progress, gender justice, and equality.
    Thank you for sitting here all day long. She is not even a 
member of the committee. So I really appreciate your being 
here, and I appreciate your voice.
    Ms. Lee. Well, thank you, Chairwoman Maloney, for holding 
this hearing and for your tremendous work and leadership and 
also for allowing me to sit through this very, very important 
hearing.
    I also want to thank my colleagues from the Pro-Choice 
Caucus, especially our chairs of our task forces, Congresswoman 
Ayanna Pressley and Congresswoman Judy Chu, who have been such 
clear-thinking and passionate leaders on so many issues since 
they have been here in the House of Representatives.
    First, let me just- and throughout their lives, quite 
frankly. Let me start by just stating a couple of statistics.
    Banning access to safe, legal abortion is not what the 
majority of this country wants. According to recent polling 
published in September, 77 percent of Americans support access 
to abortion. And we know and we see how many of these 
restrictions disproportionately, which we have talked about, 
impact women of color and low-income women.
    Access to the full range of reproductive healthcare should 
be accessible to all and not based on one's race, income, or 
zip code.
    Now fighting for equitable access to abortion is deeply 
personal for me, and I do, and it is hard to talk about this, 
but I think today, you know, I will mention it again. I 
remember very clearly the days of back alley abortions before 
Roe v. Wade. I was a teenager, only 16 years old, and had to go 
to Mexico for a gut-wrenching back alley abortion.
    Again, before Roe v. Wade, abortions were not safe nor 
legal in my own country. So I refuse to stand by and see even 
one more woman's life put in danger because of lack of access 
to safe and legal abortion.
    Now many of my Republican colleagues here today and the 
minority witness, they want to portray women who have had 
abortions as evil or as murderers. But I am here today with 
several of my sisters, several who have personally had an 
abortion. And when you say these comments, they also say them 
to me, they say them to you, and we are not going to stand for 
it.
    Many- and I serve on the Appropriations Committee, and let 
me tell you what I see. Many of our Republican colleagues, they 
opposed teen pregnancy prevention programs. They oppose 
comprehensive sex education. They oppose family planning. They 
oppose contraception. They oppose abortions.
    Again, as an appropriator, I see these budgets zeroing out 
funding for healthcare programs that would prevent pregnancies, 
prevent pregnancies. Also I see budget cuts every day to 
childcare, SNAP benefits, nutrition, early childhood education, 
everything that would help raise families and children in a way 
that they deserve to be raised.
    So I want to just ask you your feedback, maybe Ms. Howell, 
could you just- we know that these programs are 
disproportionately impacting women of color, and how do you see 
this whole movement now, what we are seeing? I still call it a 
war on women's health because when you look at the 
comprehensive nature of these cuts and the policies and the 
restrictions, what else is it? What are we to do as women in 
this country?
    Ms. Howell. I think that one of the things that we have--we 
have seen over the last couple of years is women taking back 
their rights, and it is not just women. It is people. It is 
LGBTQ people. It is trans people. Basically, standing up and 
saying we won't allow this to happen anymore.
    And we saw it in the 2018 election. We saw it where women 
of color, for instance, came out and voted to change the House 
of Representatives. Voted very strongly. And one of those 
issues that they voted on was Hyde, eliminating Hyde and having 
the EACH Woman Act.
    So they were very clear about what they were looking for 
and the right to make decisions for themselves without 
political interference. And I think that that is critical.
    Ms. Lee. Thank you.
    Ms. Graves, would you like to comment? We have just a few 
more seconds. I want to thank Ms. Box for your being here today 
and your stories and for being so brave in terms of giving the 
real deal about what women go through as a result of trying to 
exercise their constitutional right.
    So thank you. Ms. Graves?
    Ms. Goss Graves. I just want to add that it is true that 
people are outraged and are rising up against the bans that are 
sweeping this country, but this is a dangerous time. It is 
dangerous to ban abortion. It is dangerous to have states where 
people think they can't get care, even though abortion is legal 
in every state of this country.
    And it is dangerous, the rhetoric that we heard in this 
room today and that we hear outside of this room that demonizes 
patients, that demonizes women, and that goes sort of to the 
core of who we are as a country. This is- today has reminded me 
how dangerous these times are.
    Ms. Lee. Thank you.
    Thank you, Madam Chair, very much.
    Chairwoman Maloney. I want to thank my friend Barbara Lee 
for sharing really one of the most personal and heartbreaking 
events of her life. She is sharing it not only at this hearing, 
but with the whole world, and Barbara Lee, your courage has 
made us all stronger.
    Thank you. And your leadership.
    I now call on an incredible woman, a newly elected woman to 
our Congress, Congresswoman Kim Schrier. She is from the great 
state of Washington. She is a physician and a powerful advocate 
for science and women across this country.
    Thank you for being here. She is not a member of this 
committee, but she wanted to be here and to speak out, and I 
thank you for being here all day, supporting our efforts.
    Thank you. Dr. Schrier?
    Ms. Schrier. Thank you, Madam Chair. I laughed because I 
thought you were going to talk about Ayanna Pressley, who is a 
member of our freshman class.
    [Laughter.]
    Chairwoman Maloney. I already talked about her.
    Ms. Schrier. I came here today to talk about these 
unnecessary restrictions on a woman's access to full 
reproductive care, access to abortion. And we have heard about 
a million ways that local governments and state governments are 
trying to restrict a woman's access to a safe and legal medical 
procedure.
    And every one of these unnecessary ultrasounds, bogus 
scripts, hallway signs, admitting privileges at local 
hospitals, second pelvic exams, even first pelvic exams, 
admitting privileges I mentioned, and even waiting periods, all 
of those are unnecessary. They make it harder for women. They 
especially make it harder for women who are poor, who would 
have to take additional time off work, who would have to travel 
great distances.
    These do not stop abortions. If you want--that is your 
goal, you should be doubling down on funding for Planned 
Parenthood for pregnancy prevention. These do not stop 
abortions. They make them later. They delay them, or they make 
them less safe. They are totally inappropriate.
    Now I came to talk about that, and I want to reinforce that 
this is a safe and legal procedure. It is something that 1 out 
of 4 women have before she is 45 years old. This is more common 
than a tonsillectomy. This is common. Chances are excellent, 
pretty much 100 percent, that everybody in this room knows 
somebody who has an abortion. That is how common it is.
    So I came to discuss those things, but then I heard all 
kinds of rhetoric, all kinds of rhetoric. And as a doctor, and 
thank you all for being here, I really feel like I need to push 
back on a lot of Ms. Stuckey's comments. Pseudoscience, total 
baloney, and I don't feel like I can let those things just 
stand.
    I mean, it is everything from not understanding a 
difference between an embryo and a baby, which, by the way, if 
she believes they are the same, that is a personal 
philosophical and religious decision. That is not a medical 
distinction, and that is not something that Congress should be 
involved in. It is not something that she should have any say 
over any other woman's decision.
    But there are other things that she talked about, like 20 
weeks in pain. Totally unproven, bogus. She talked about the 
gag rule not being a gag rule. It is. When a physician cannot 
mention that one option for her patient is abortion, that is a 
gag rule. And by the way, it is a dangerous gag rule because if 
a woman is diagnosed with pregnancy and cervical cancer at the 
exact same visit, an abortion would save her life. Let us be 
clear.
    The other one she mentioned was she painted a very happy 
picture of a 23-week micro preemie. I am a pediatrician. I 
spend a lot of time in NICUs. Let me tell you what the real 
picture is. The real picture is that you have got about a 50/50 
shot at survival. And you have got, if you do survive, a very 
high likelihood of having consequences later down the line.
    Now that doesn't mean that I didn't resuscitate those 
babies and take care of them and take care of them in the NICU, 
but it does mean that she is not giving you the full correct 
picture of the situation.
    But the most egregious one is this discussion that somehow 
you could pull a baby out 3 days before delivery and call that 
an abortion. We call that an induced delivery. That is a baby 
who is pulled out and handed to their mother or taken to the 
NICU, where a doctor like me would take care of them if they 
are in trouble or in distress.
    If you want to have a conversation about pregnancies and 
abortions later in pregnancy, let us have a really honest 
discussion about it. About 1 percent of abortions happen after 
20 weeks, and none of these are because a woman just decided 
one morning I don't want to be pregnant anymore. That does not 
happen.
    These are all for a reason. Some devastating turn, 
something devastating has taken a turn in a pregnancy. 
Something has happened, either with the health of the mother or 
the health of the pregnancy, and it is so important that 
Congress not get into that discussion.
    This is a decision between a woman and her God and her 
doctor and her life, and only she knows how to make this 
decision, and there is absolutely no place for me or anybody in 
Congress to get into that discussion. What we owe that woman is 
a little grace and a little trust to make the best decision 
about her body.
    I will end there. Thank you. And I am sorry that you had to 
put up with such harassment today. Thank you for your services.
    Chairwoman Maloney. Thank you. I now recognize Mr. Keller.
    Mr. Keller. Thank you, Madam Chair.
    What I want to start out with is I heard some testimony 
during today's hearing about the viability of a pregnancy being 
difficult to determine because they are all based on a 
different diagnosis, different situation. And I will get to 
that later in my comments.
    I just want to start out with knowing that, and I know that 
it was just mentioned that some babies have a 50/50 shot at 
survival. You know, Dr. Schrier mentioned that. I just want to 
say this. Every life has opportunity and hope. And sometimes 
doctors, despite their best efforts, do not calculate the 
appropriate outcome for their diagnosis.
    I have had personal experience with this. When my son 
Freddy was three years old, he had an injury resulted in a- led 
to a devastating head injury. He had an accident. The doctors, 
despite their best efforts, thought Freddy was not going to 
live.
    He was put on life support. As we waited and prayed, the 
doctor's prognosis was that the mortality rate of children in 
his condition was not 50 percent, was not 98 percent, but we 
were told was 100 percent. He was not going to live.
    They even tried to convince us to disconnect life support 
and end his treatment since they did not believe he was going 
to live. He was on a vent for 28 days. We chose life. We chose 
hope. And Freddy started to recovery.
    Even then, the doctors said he would have permanent brain 
damage and would not have a meaningful or full life. I am happy 
to say that today Freddy has fully recovered. Freddy's outcome 
was different.
    He graduated from college and now works for the hospital 
that saved his life. It was a different outcome than what the 
doctors told us it would be. His accident is now a memory, but 
also an opportunity to learn about the value of human life.
    As this pertains to today's hearing, in this country, we 
have countless situations where people determine the value of 
an unborn human life. Abortions are sometimes planned and 
executed based upon diagnoses that have uncertain outcomes.
    Sometimes as a result, babies are born. They are alive, and 
they are killed as part of a planned abortion procedure. This 
should not only shock the conscience, but should make the 
American people sick.
    I am not asking for an answer to the next question I am 
going to ask. I am just going to leave it up to the people that 
are watching. But where does it stop when we have people 
determining the value of human life?
    I yield back.
    Ms. Foxx. Mr. Keller, would you yield to me?
    Mr. Keller. I yield to Dr. Foxx.
    Ms. Foxx. Thank you, Mr. Keller.
    Mr. Keller, thank you for that moving story about Freddy. I 
think you illustrated something very important to us. Doctors 
can make predictions, but they are not God, and they don't know 
what is going to happen.
    We have heard a lot of things here today, but I could not 
let this hearing close without saying that there are many 
things we have heard that should make us shudder, but I believe 
that what Mr. Keller said leads us into what I want to say 
next.
    But comparing killing a baby to removing wisdom teeth is 
absolutely beyond the pale. And when we have people, as Mr. 
Keller asked the question, where is this decision to kill 
innocent life going to take us in this country?
    To say it is terminating a pregnancy, and as Ms. Stuckey 
said, never, ever facing up to what you are really doing, is 
scary to me. And I want to say that Ms. Lee said that 
Republicans characterize women who have had an abortion as 
evil. I have never heard a Republican say that.
    We grieve- and I said that at the beginning. We grieve for 
the women who find themselves making that decision. I cannot 
imagine that it is ever easy. I hope it is never easy for any 
woman to decide to kill her unborn child. I hope and pray that 
is not easy, and I would never characterize a woman who is 
faced with that decision and makes that decision as evil.
    Thank you, Madam Chair.
    Chairwoman Maloney. I thank the gentlewoman. She yields 
back.
    And I yield myself five minutes.
    And this hearing is very important to me and very 
meaningful because usually when I am attending a hearing on 
women's healthcare and women's needs, I am talking to an all-
male panel and usually have to ask ``Where are the women?'' 
especially on hearings that affect their well-being and their 
healthcare. It is personally thrilling and inspiring to me to 
see a panel made entirely of women's voices, and America should 
listen to women's voices.
    I want to thank all of the panelists, but I particularly 
want to thank Mrs. Box. I believe that your voice is the most 
important of all the important voices that we have heard today. 
Because to me, you represent every person who has been shamed 
and judged for making a deeply personal decision about their 
own body and their own healthcare and for them wanting to 
access the very best healthcare that they need to take care of 
themselves and their families.
    I just want to ask you, Mrs. Box, and I know it is 
difficult to testify before Congress on anything, but 
especially something that has been so personal, how did it feel 
to hear officials in your state and across the country say 
hateful, hateful rhetoric about the decision that you were 
making, your own personal decision? How did it feel?
    Ms. Box. It is insulting, and I appreciate Representative 
Foxx's sympathy for me, but I would like to say that while my 
particular reason for abortion of fetal diagnosis was sad for 
our family, most women, including myself- not all, but most- 
experience relief after having an abortion.
    And I said in my- I think when I answered a question that 
our abortion, it was the first day that we began to heal from 
the grief of our diagnosis. I have cried a lot of tears about 
Libby, but they have all been in grieving my daughter and never 
once in regret for my decision to make a medical choice for her 
as her parent.
    And you know, I also wanted to say- I am sorry, sir. I 
can't see your name. But I am really glad that your son had a 
positive outcome, and I believe in supporting parents in making 
the best decisions for their family and their children, and 
that is what my husband and I did for Libby.
    Chairwoman Maloney. Thank you. Thank you for sharing your 
experience.
    Dr. McNicholas, you cared for hundreds of patients in Mrs. 
Box's situation. What impacts have you seen on the patients you 
care for in Missouri, as these restrictive laws are enacted and 
forced upon them?
    Dr. McNicholas. So I think, first and foremost, the 
outright confusion that people have about what is happening in 
terms of their access to abortion, and reproductive care more 
broadly, is really important to lift up.
    As abortion bans are passed, whether they are enacted or 
not, patients automatically think that means they can't access 
abortion. So we have done a tremendous amount of work in 
patient reassurance, in making sure that the country knows that 
abortion is still legal in every single state in this country.
    Chairwoman Maloney. What are you most worried about for 
your patients?
    Dr. McNicholas. I worry that they have the realization, the 
full realization that the people who are charged with 
protecting their health have completely abdicated their 
responsibility based on an ideologic viewpoint.
    I 100 percent people who don't believe in abortion choosing 
not to have one. But I also think it is the right of every 
other individual to make that choice based on their values.
    Chairwoman Maloney. I thank you really for the--
    Mr. Clay. Madam Chair?
    Chairwoman Maloney.- courage that all of you have in your 
work and what you have done for other women and for our 
country.
    I want to share that I have within my district two Planned 
Parenthood centers, and if you go to them at the end of the 
day, when women are getting off of work, women are lined up 
through the halls of the building, outside to the sidewalk, 
down the street into the next block, waiting to get basic 
healthcare services. And Planned Parenthood centers provide 
primary and preventive healthcare to many who otherwise would 
have nowhere else to turn for care.
    And I want to point out that 54 percent of Planned 
Parenthood centers are in areas where there is healthcare 
shortages, and we have heard testimony from medical experts 
that if Planned Parenthood is defunded, there is no other 
health facility that can address these needs and help these 
women. I cannot tell you how many women come to my office and 
tell me that at certain times in their life, the only place 
they could get healthcare was Planned Parenthood. And I want to 
put that on the record that I think it is a scandal that anyone 
would ever try to defund a service that is providing so much 
help to people that need it.
    This has been an important hearing to me, and I intend to 
continue working on this area and helping women receive the 
respect and the healthcare they deserve. I would now like to 
call on my good friend Jackie Speier and give her five minutes 
and thank her for her relentless leadership in support of 
women's issues and women.
    Ms. Speier. Thank you, Madam Chair.
    And thank you to a remarkable panel of very persuasive and 
committed women to the service of other women.
    Ms. Box, when you testified earlier, I was sitting here, 
and I started to cry because I share the same experience that 
you have had. I lost a child, a fetus, when I was 17 weeks, and 
I told my story on the House floor in part because I sat there 
and listened to such false information coming from my 
colleagues on the other side of the aisle that it outraged me 
so much that I said you have no idea what you are talking 
about. You have not lived through this kind of experience.
    And to hear you talk about Libby Rose and keep her on your 
chest is just very powerful because it underscores what we all 
go through when we lose a fetus at late term. It is never by 
choice. And I find it so offensive that we continue to have 
Members here in Congress think that they can somehow take hold 
of our bodies and tell us what we can do.
    So thank you. Thank you for your presence here, for your 
new infant's presence here. Having the gurgling of your child 
was just music to all of our ears.
    And thank you to all of you as well.
    I am going to share one story, though, that relates to 
Missouri. My daughter went to the University of Missouri and 
graduated there. She had a girlfriend who became pregnant, who 
then drove an hour and a half to St. Louis to be seen and then 
was told that she had to wait three days. And so then she had 
to drive an hour and a half back. And then, of course, she 
couldn't get the abortion in three days because there was such 
a long waiting list.
    Now this friend of my daughter's then finally called her 
mother, who lived in another state, who was not pro-choice. And 
her mother came and picked her up and took her to another state 
to get the abortion.
    We cannot force women to have to jump through hoops and 
travel long distances to get the healthcare that they deserve 
and that is legal under the law in this country. And to see 
what Missouri has done with their laws and how difficult they 
have made it is so repugnant to me and should be repugnant to 
every woman in this country.
    Now, Ms. Box, let me ask you the question that I think 
about a lot. When you were required to wait your 72 hours and 
received this counseling, what was the counseling that you 
received?
    Ms. Box. Well, first, I want to say that I thank you for 
sharing your story with me, and I am sorry for your loss. I 
know how painful that is.
    I am not the legal expert, but you don't really have is it 
counseling?
    Ms. Speier. You didn't recognize it as counseling.
    Ms. Box. Oh, the book? Oh. Okay. I am sorry. Yes, you are 
right. I didn't understand that was considered counseling.
    Ms. Speier. What was it?
    Ms. Box. It is a booklet that has- so the consent process, 
I guess, is that- I apologize. So they had to go over this 
information, and they provided me with a booklet that is 
written by the state that has medically inaccurate information 
in an attempt to help me make an informed decision, which just 
doesn't make sense to me.
    But what I will say is that how it works in Missouri 
currently is that you have to consent with the provider who 
will perform the abortion. So my consent and my counseling, the 
book, like I said earlier, I called ``book of shame.'' But my 
conversation with the provider, with the doctor who works at 
Planned Parenthood, was the most compassionate care I have ever 
received.
    She took something that was the worst experience of my 
husband and my life and showed us love and no judgment and 
counseled us in all of the options available to us, and gave us 
medically accurate, science-based information so that we could 
make a decision as parents that was informed and full of love.
    Ms. Speier. Thank you. Thank you again, all of you, and I 
yield back.
    Chairwoman Maloney. Thank you. Thank you so much.
    I would like to enter into the record a series of letters 
the committee has received in recent days from organizations, 
including the American College of Obstetricians and 
Gynecologists, Reproaction, the Guttmacher Institute, and the 
American Civil Liberties Union. These letters express grave 
concern over the impact that state restrictions on abortion 
access are having on the health, economic well-being of women 
in America and their families.
    I ask unanimous consent that these letters be entered into 
the official hearing record, and I so order.
    Chairwoman Maloney. I would like now to thank our 
incredible witnesses for testifying and for their life's work.
    And without objection, all Members will have five 
legislative days within which to submit additional written 
questions for the witnesses to the chair, which will be 
forwarded to the witnesses for their response.
    I ask our witnesses to please respond as promptly as 
possible, and this hearing is now--
    But before I conclude this hearing, I would like to thank 
the powerful women of this committee, especially Ms. Speier, 
Ms. Pressley, Ms. Kelly, Ms. Ocasio-Cortez, for their 
leadership on this issue and for encouraging the committee to 
examine it.
    I would also like to thank Congresswoman Judy Chu, 
Congresswoman Jan Schakowsky, Congresswoman Barbara Lee, and 
Congresswoman Kim Schrier, for joining us this afternoon and 
for their tireless work to preserve access to abortion and 
reproductive healthcare for women across this Nation.
    And I would also like to thank Lacy Clay, who has worked 
with me on this hearing and for his leadership on this issue.
    This hearing is adjourned, but we are going to continue on 
this issue.
    Thank you.
    [Whereupon, at 5:24 p.m., the committee was adjourned.]

                                 [all]
</pre></body></html>
